<html>
<title> - WHAT ARE THE PROSPECTS? WHAT ARE THE COSTS?: OVERSIGHT OF MISSILE DEFENSE (PART 2)</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   WHAT ARE THE PROSPECTS? WHAT ARE THE COSTS?: OVERSIGHT OF MISSILE 
                            DEFENSE (PART 2) 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 16, 2008

                               __________

                           Serial No. 110-149

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

48-660 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





























              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
------ ------

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
                                     TODD RUSSELL PLATTS, Pennsylvania
                       Dave Turk, Staff Director
































                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 16, 2008...................................     1
Statement of:
    Gronlund, Lisbeth, Ph.D., senior scientist and co-director of 
      the global security program, Union of Concerned Scientists, 
      research affiliate, Program on Science, Technology and 
      Society, Massachusetts Institute of Technology; Richard L. 
      Garwin, Ph.D., fellow emeritus, Thomas J. Watson Research 
      Center, IBM Corp.; Jeff Kueter, president, George C. 
      Marshall Institute; and Philip E. Coyle III, senior 
      advisor, Center for Defense Information, associate director 
      emeritus, Lawrence Livermore National Laboratory...........    12
        Coyle, Philip E..........................................    51
        Garwin, Richard L........................................    22
        Gronlund, Lisbeth........................................    12
        Kueter, Jeff.............................................    38
Letters, statements, etc., submitted for the record by:
    Coyle, Philip E., III, senior advisor, Center for Defense 
      Information, associate director emeritus, Lawrence 
      Livermore National Laboratory, prepared statement of.......    54
    Garwin, Richard L., Ph.D., fellow emeritus, Thomas J. Watson 
      Research Center, IBM Corp., prepared statement of..........    25
    Gronlund, Lisbeth, Ph.D., senior scientist and co-director of 
      the global security program, Union of Concerned Scientists, 
      research affiliate, Program on Science, Technology and 
      Society, Massachusetts Institute of Technology, prepared 
      statement of...............................................    16
    Kueter, Jeff, president, George C. Marshall Institute, 
      prepared statement of......................................    41
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        Information concerning testing history...................   116
        Prepared statement of....................................     3
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     8


   WHAT ARE THE PROSPECTS? WHAT ARE THE COSTS?: OVERSIGHT OF MISSILE 
                            DEFENSE (PART 2)

                              ----------                              


                       WEDNESDAY, APRIL 16, 2008

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:35 p.m., in 
room 2157, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Lynch, Yarmuth, Welch, 
Shays, Foxx, and Franks.
    Staff present: Dave Turk, staff director; Davis Hake, 
clerk; Dan Hamilton, fellow; Christopher Bright, minority 
professional staff member; Nick Palarino, minority senior 
investigator and policy advisor; Benjamin Chance, minority 
clerk; and Todd Greenwood, minority research assistant.
    Mr. Tierney. A quorum is now present. The Subcommittee on 
National Security and Foreign Affairs hearing entitled, ``What 
are the Prospects? What are the Costs?: Oversight of Missile 
Defense (Part 2),'' will come to order.
    I ask unanimous consent that only the chairman and the 
ranking member of the subcommittee be allowed to make opening 
statements. And I ask unanimous consent that the gentleman from 
Arizona, Congressman Trent Franks, be allowed to participate in 
this hearing.
    Without objection, so ordered.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee will be allowed to submit a written statement for 
the record.
    And, without objection, that is so ordered.
    I want to extend my sincere apologies to all of the 
witnesses. They are substantial people who we invite to come 
and work with us and tell us what knowledge you have and then 
we have a circumstance like that extended period of votes. So I 
hope you will accept our profound apologies and know that we 
appreciate your being here and helping the committee out.
    We are going to go out of order here, because Mr. Shays has 
to make a brief stop elsewhere. So I have asked Mr. Shays to 
please do his opening remarks, and that will be followed by 
mine.
    Mr. Shays, you are recognized.
    Mr. Shays. Thank you, Mr. Chairman, for scheduling this 
hearing today and continuing the subcommittee's oversight of 
this important topic. And thank you for your courtesy for 
allowing me to go out of order and make a statement first.
    In September 2000, our subcommittee held a hearing 
entitled, ``National Missile Defense: Test Failures and 
Technology Development,'' on precisely the issues we will 
examine today. In July 2002, our subcommittee held a hearing 
entitled, ``Missile Defense: A New Organization, Evolution, 
Technologies, and Unrestricted Testing,'' on required knowledge 
for missile defense development.
    Many of us forget that the National Missile Defense Act of 
1999 states, ``It is the policy of the United States to deploy 
as soon as technologically possible an effective national 
missile defense system capable of defending the United States 
against limited ballistic missile attacks.''
    Adopted with broad bipartisan support and signed into law 
by a Democratic President, the statute answered the question of 
whether to deploy a missile defense shield. Its decision was 
supported by the current administration and has also been 
endorsed by Congress in the fiscal year 2008 National Defense 
Authorization Act.
    The question now is not if but, rather, how to deploy a 
national missile defense. Without doubt, this is an extremely 
complex technical challenge. It literally is rocket science and 
demands an unparalleled degree of technological precision. The 
challenges missile defense must reliably solve include launch 
determination, target discrimination, command and control 
coordination, and target interception. With such daunting 
demands, one can only expect the program to progress unevenly 
and experience a certain degree of setback.
    We are here to look at the technical process of the 
progress of the program since those hearings. Over the past 
decade, Congress has appropriated a great deal of money to 
missile defense. While acknowledging the difficulty of the 
task, we must still ensure progress is being made. Perfection 
is not expected, but significant progress has to be. If there 
are significant problems and delays, we must consider modifying 
the program.
    I understand we have already fielded an initial capacity to 
defend the United States and our allies against ballistic 
missile attacks. This is exactly the type of progress I look 
for, as we were far from such progress in the hearings I held 
into the matters as chairman of the subcommittee in 2002. I am 
interested to hear from our witnesses what problems remain that 
prevent us from fully deploying a capable and reliable system.
    I thank our witnesses for their time today. I look forward 
to their testimony. And I apologize that I will be leaving for 
a short period, but I intend to come back.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you, Mr. Shays.
    And thank you all again for being here. I am sorry Mr. 
Shays won't be here for your opening remarks, but I am sure we 
will cover it in terms of questions. The questions of whether 
we have an effective system, one that is capable of defending 
this country, of course, are huge. I don't think it meant that 
we would have a policy that we would buy before we fly, nor 
does it mean that we are going to have a policy that would 
waste money. And I think all of those questions are open, as is 
what the word ``fielded'' means in terms of what capacity is 
out there now.
    But this is, in fact, our second oversight hearing of this 
series this year. I was present for the earlier hearings Mr. 
Shays referenced, and I think we had the same questions then as 
we have now.
    We are going to continue this extensive and sustained 
oversight of missile defense for three primary reasons.
    First, the Missile Defense Agency operates the largest 
research and development program in the Department of Defense, 
consisting currently of about $10 billion a year. Since the 
1980's, this is a program that has already cost $120 billion by 
some estimates, $150 billion or more by other estimates. As 
some have pointed out, this is an amount of time and money 
already exceeding what we spent on the Manhattan Project or the 
Apollo program, and there is no end in sight.
    Second, the broader history of missile defense efforts 
teaches us a number of important lessons. The nonpartisan 
Congressional Research Service put it this way: ``Efforts to 
counter ballistic missiles have been underway since the dawn of 
the missile age at the close of World War II. Numerous programs 
were begun, and only a very few saw completion to deployment. 
Technical obstacles have proven to be tenacious, and systems 
integration challenges have been more the norm, rather than the 
exception.''
    The third reason for doing these hearings is the excellent 
analysis and work of those who are testifying before us today 
and who have testified at our previous hearings and others like 
them who have raised very serious concerns about the 
efficiency, effectiveness, and even the need for our country's 
current missile defense efforts.
    In our first hearing, we had an extraordinary discussion 
about the hard realities of the threats facing our country from 
intercontinental ballistic missiles versus other 
vulnerabilities that we face, a discussion which should form 
the foundation for any wise policymaking but that too often 
gets forgotten, ignored, distorted or manipulated.
    Now, we will tackle head-on the questions of what are the 
prospects of our current missile defense efforts and at what 
cost. We have the very good fortune today to host some of the 
Nation's finest minds and top experts on the subject of missile 
defense. We have a group of people who have literally devoted 
their lives to understanding these problems, who are far more 
familiar with these issues than anyone in the world. And I am 
honored to have them here today and eagerly await our 
discussion this afternoon.
    When we talk about prospects of missile defense, a number 
of issues come up that we will hear extensively discussed 
today, for instance: the realism of the testing regime, the 
pace of testing, fundamental physics constraints, and a mind-
numbing variety of technical challenges, just to name a few.
    One problem that comes up again and again is the use of 
countermeasures. The analysis holds that a country 
sophisticated enough to build an intercontinental ballistic 
missile with a miniaturized nuclear warhead, an effort that we 
learned from the Congressional Research Service at our first 
hearing was truly extraordinary, would also develop 
countermeasures that could pose fundamental problems for any 
national missile defense system.
    As was pointed out by at least a couple witnesses today, 
the CIA itself has acknowledged the wide potential use of 
countermeasures. The 1999 National Intelligence Estimate 
concludes, and it is up on the screen for those who want to 
read it along: ``We assess that countries developing ballistic 
missiles will also develop various responses to U.S. theater 
and national defenses. Russia and China each have developed 
numerous countermeasures and probably are willing to sell the 
requisite technologies. Many countries, such as North Korea, 
Iran and Iraq probably would rely initially on readily 
available technology--including separating RVs, spin-stabilized 
RVs, RV reorientation, radar absorbing material, booster 
fragmentation, low-power jammers, chaff, and simple (balloon) 
decoys--to develop penetration aids and countermeasures. These 
countries could develop countermeasures based on these 
technologies by the time they flight test their missiles.''
    So our simple question for our panel today is, taking this 
into account, what are the prospects of success of our current 
missile defense system, and how likely are we going to be able 
to overcome this fundamental problem in the foreseeable future?
    The Missile Defense Agency was born at the moment the Anti-
Ballistic Missile Treaty between the United States and Russia 
was killed. Defense Secretary Rumsfeld promptly exempted this 
new agency from normal acquisition, testing and reporting 
requirements, and the agency went down a path of so-called 
spiral development that has been carried out, in the words of 
one of our witnesses today, to an ``unworkable extreme.''
    A number of our witnesses today will point out the 
consequences of this, including that we have an incredibly 
opaque system and one in which accountability and transparency 
are greatly sacrificed.
    The Congressional Budget Office has estimated that, 
assuming the Missile Defense Agency continues on its present 
course, the taxpayers will spend an additional $213 billion to 
$277 billion between now and 2025. The graphic on the screen 
reflects that. I need to stress that this is in addition to the 
$150 billion we have already spent.
    In a time of economic hardship, budget deficits and many 
pressing and expensive challenges, both foreign and domestic, 
we need to ask ourselves, whether a conservative Republican or 
a liberal Democrat: Are we wisely spending the taxpayers' money 
here? Is there a real threat we are trying to guard against? 
And are we actually going to have something useful at the end 
of the day? That is why we are here today, and that is why we 
are having this hearing.
    And, again, I want to thank the witnesses.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. The subcommittee will now receive the 
testimony from the witnesses that are before us today.
    By brief introduction, Dr. Lisbeth Gronlund--Dr. Gronlund 
is a senior scientist and co-director of the Global Security 
Program at the Union of Concerned Scientists and a research 
affiliate in the Program on Science, Technology, and Society at 
the Massachusetts Institute of Technology.
    She holds a Ph.D. in theoretical physics from Cornell 
University. Her research is focused on technical issues related 
to nuclear terrorism and fissile material controls, the U.S. 
nuclear weapons policy and new nuclear weapons, space weapons, 
and ballistic missile defenses.
    She has published widely in scientific and policy journals, 
given numerous talks about nuclear arms control and missile 
defense policy issues to both lay and expert audiences, and 
testified previously before Congress, including to this 
committee, and we welcome her back.
    Dr. Richard Garwin--Dr. Garwin is one of the world's most 
eminent physicists and a long-time scholar of missile defense. 
After working with Dr. Edmund Teller on the creation of the 
hydrogen bomb, Dr. Garwin left the University of Chicago to 
join IBM Corp. in 1952, where he remains fellow emeritus in the 
Thomas J. Watson Research Center in New York.
    He is a founder of the modern U.S. Satellite Intelligence 
Program, and has advised Presidents and Congress on matters of 
national security his entire career, including 8 years as 
chairman of the Arms Control and Nonproliferation Advisory 
Board of the Department of State.
    He is the recipient of many national and international 
honors, including being awarded in 2003 the National Medal of 
Science from the President of the United States. He has been 
professor of public policy at the Kennedy School of Government 
at Harvard University, has published more than 500 scientific 
papers, and holds 45 U.S. patents.
    Jeff Kueter is the president of George C. Marshall 
Institute in Washington, DC. He focuses on the issues of 
national security and the environment. Mr. Kueter also manages 
the day-to-day operations of the George C. Marshall Institute, 
authoring its policy papers and analysis and engaging the 
public and the policymaking community.
    He received his bachelor's of arts with honors in political 
science and economics at the University of Iowa, and a master's 
degree in political science and another master's of security 
policy studies in science and technology studies, both from 
George Washington University. He has served as research 
director at the National Coalition for Advanced Manufacturing 
and at the Washington Nickleby Consultants.
    Philip E. Coyle III--Mr. Coyle is a senior advisor to the 
Center for Defense Information. A former Assistant Secretary of 
Defense, Mr. Coyle is the longest-serving director of 
operational tests and evaluation in the 20-year history of that 
office. He oversaw the test and evaluation of over 200 major 
defense acquisition systems and reported to the Secretary of 
Defense and to Congress on the adequacy and results of Defense 
Department testing programs.
    He is the associate director emeritus at the Lawrence 
Livermore National Laboratory, where he started in 1959. He was 
appointed by President George W. Bush to serve on the 2005 
Defense Base Realignment and Closure Commission.
    Mr. Coyle is an expert on military research, development 
and testing, on operational military matters, and on national 
security policy and defense spending, including defense 
acquisition reform and defense procurement. He has an extensive 
background in missile defense, in military defense systems and 
in nuclear weapons.
    The subcommittee again thanks all of you for being with us 
here today. Your decades of experience and firsthand knowledge 
of the topics will provide us with an unparalleled independent 
view into these complex issues.
    It is the policy of the subcommittee to swear you in before 
you testify. I would ask you if you would stand and raise your 
rights hands, please.
    [Witnesses sworn.]
    Mr. Tierney. The record will please reflect that all the 
witnesses answered in the affirmative.
    Your full written statements will be put into the hearing 
record, by unanimous consent.
    We normally would ask you to keep your oral statements to 5 
minutes in duration, but I think you have agreed to follow 
along with the matter, and we are going to be as lenient as we 
possibly can. We want to hear what you have to say. We will 
take your testimony. If it gets to be a little too long, I will 
try to just tap on the gavel a little bit and maybe you can 
bring it to a conclusion.
    Otherwise, we, again, thank you. And let's start, if we 
can, with Lisbeth Gronlund.
    Your testimony, please.

STATEMENTS OF LISBETH GRONLUND, PH.D., SENIOR SCIENTIST AND CO-
  DIRECTOR OF THE GLOBAL SECURITY PROGRAM, UNION OF CONCERNED 
SCIENTISTS, RESEARCH AFFILIATE, PROGRAM ON SCIENCE, TECHNOLOGY 
AND SOCIETY, MASSACHUSETTS INSTITUTE OF TECHNOLOGY; RICHARD L. 
   GARWIN, PH.D., FELLOW EMERITUS, THOMAS J. WATSON RESEARCH 
 CENTER, IBM CORP.; JEFF KUETER, PRESIDENT, GEORGE C. MARSHALL 
INSTITUTE; AND PHILIP E. COYLE III, SENIOR ADVISOR, CENTER FOR 
  DEFENSE INFORMATION, ASSOCIATE DIRECTOR EMERITUS, LAWRENCE 
                 LIVERMORE NATIONAL LABORATORY

                 STATEMENT OF LISBETH GRONLUND

    Ms. Gronlund. I thank you very much for inviting me here 
today, and I applaud the committee for taking up this issue. It 
is a very important one that I think requires more oversight.
    I will first discuss the prospects for building a ballistic 
missile defense and some of the security costs that have ensued 
from efforts.
    As you know, last month marked the 25th anniversary of 
Reagan's famous Star Wars speech in which he announced his plan 
to develop a missile defense system that would make nuclear 
weapons impotent and obsolete. His vision of a shield that 
would protect us from nuclear missiles just as a roof protects 
a family from rain was very compelling to many people. I think 
it is a vision that remains compelling today. This was a time 
when the United States and Soviets had 25,000 missiles and 
35,000 missiles, and we could see it was particularly appealing 
then.
    The task now, defending against potential future North 
Korean or Iranian long-range missiles, is far less demanding. 
Anti-missile technology has also come a long way in the past 25 
years. Guidance and homing have improved so much that all 
current U.S. missile defense systems use hit-to-kill 
technology, where the incoming target is destroyed by ramming 
into it. Twenty-five years ago, our missile defenses were 
nuclear-tipped, because you couldn't possibly get close enough 
to the incoming target.
    However, despite this technical progress, the United States 
is no closer today than it was 25 years ago to be able to 
defend against long-range missiles. As you yourself noted, 
there will be a lot of discussion today about the perennial 
countermeasures problem as well as the lack of testing.
    As you will hear all three of us articulate, this issue of 
countermeasures, steps that a nation would then take to counter 
a U.S. defense system, is really at the core of why we will not 
be able to build an effective defense. There I believe Phil 
will talk in more detail about different kinds of 
countermeasures.
    Now, I believe that an independent panel of people who have 
technical expertise should have been convened at the beginning 
of this program where they would do a big-picture review, but 
it is not too late to do a review like this now.
    The members of such a panel should not be chosen on a 
partisan basis. I know often Congress appoints committees and 
the Democrats choose half of the members of the committee and 
the Republicans choose the other half. I don't think this is 
the right approach. I think a group like the JASON Group would 
be ideal to look at this from a very fundamental point of view.
    In other words, to use the analogy that the Missile Defense 
Agency uses, is it possible for this system ever to run? 
Because if it is not, it is pointless to spend money trying to 
get it to crawl.
    I want to suggest some other things that Congress could do 
to better understand the limitations of this system. I think it 
is important that the committee look into the testing plans for 
the ground-based missile defense system. When does MDA plan to 
test against a threat using realistic countermeasures, and what 
are those countermeasures? When does MDA plan to test against a 
tumbling warhead?
    In this regard, it would be useful for Congress to require 
the Missile Defense Agency to set up a red team to prevent 
superpower agents that would be within the capability of a 
nation who could build a long range-missile and a nuclear 
warhead.
    I think an independent panel is also needed to provide 
ongoing peer review, technical peer review, of the program as 
it moves forward, if it moves forward. And, again, I think it 
should be a panel that is nonpartisan, not bipartisan.
    For example, one of the initial tests was a so-called fly 
by test. There was no team at an intercept. It was simply a 
test of the sensors on the kill vehicle. It flew by a number of 
objects of different sizes and shapes, and its task was to see 
if it could pick out the warhead. There have been lots of 
questions and concerns raised about that test, whether in fact 
it demonstrated anything. This was a proof-of-concept test. It 
is still important to understand what really happened then.
    Another issue that merits some consideration on the part of 
the committee is the capability of the radar that the United 
States wants to deploy in Eastern Europe. There are reasons to 
believe that the effectiveness of that missile defense system 
as portrayed by the Missile Defense Agency are inaccurate. And, 
again, it is something that an independent panel that can do 
peer review would be really important to have.
    Also, until the Missile Defense Agency conducts these tests 
with realistic countermeasures and demonstrates that there is 
some potential, Congress should provide no funding to purchase 
and deploy additional interceptors or radars.
    So, let me turn now to the costs. I know many people talk 
about monetary costs. I think, while those are large, I think 
the more significant costs are those to U.S. security.
    Many people find a contradiction between my statement that 
the missile defense system is not, cannot, will not be 
effective, and yet at the same time it will cost other 
countries who believe it to be effective to react in a way that 
undermines U.S. security. And let me just address that 
directly.
    Other countries and the United States engage in worst-case 
analysis when they are making military plans. That is their 
job. So when they look at what the United States is doing, they 
assume that it will work. They also assume that if we are 
spending this much money, that we think it will work. And those 
military planners then decide what to do with their nuclear 
weapons and their long-range missiles.
    And this has been the essential problem for decades. This 
is why the United States and Soviet Union signed the Anti-
Ballistic Missile Treaty. They both came to understand that 
trying to build defenses would cause the other nation to add 
missiles, to do something to counter the defense, and they 
realized this would be a bad deal for both nations.
    Now, we see that, in perhaps a less severe form, the United 
States is interested in deploying a radar and interceptors in 
Eastern Europe. Russia is very unhappy about this. It turns out 
that the only threat to the United States that could really 
destroy our nation as a functioning society is the Russian 
missile arsenal, nuclear weapons arsenal. And one reason that 
is so is that they deploy more than 1,000 of their nuclear 
armed missiles on high alert, as does the United States. What 
this means is that those missiles are vulnerable to accidental 
use, to unauthorized use, or to deliberate use but under 
mistaken assumptions that Russia is under attack by the United 
States. Basically, when you have weapons ready to go, you have 
less control over them.
    Back when President Clinton was trying to negotiate the 
treaty with Russia, U.S. negotiators explicitly told the 
Russians that they should not worry about a missile defense 
system because they could always maintain their missiles on 
launch-on-warning. That way, they would not need to worry about 
an incoming U.S. attack that would destroy a good fraction of 
Russian missiles, and then the rest of them being knocked down 
by a missile defense system. We should not want to encourage 
Russia to maintain its missile defense on launch-on-warning.
    Similarly, China has about 20 long-range missiles. You can 
see that the intended size of this missile defense system would 
be a concern to China. They have had a very modest nuclear 
weapons program. We also do not want to give them a reason to 
increase their arsenal.
    Finally, it is dangerous if U.S. policymakers believe they 
have a military capability that they do not have. Recently, 
President Bush indicated that, had North Korea's missile test 
been successful, had it been launched at the United States, 
that we could simply have shot it down. This is very dangerous, 
and the Missile Defense Agency, I believe, has been less than 
honest about what the true capabilities of the system are. It 
leads policymakers to not fully understand the limitations of 
the system. They might, for example, be less interested in 
negotiating with countries that might build long-range 
missiles. They might be more willing to take provocative 
military action.
    So those are, I believe, the biggest costs. Those are 
security costs, security costs to the United States.
    I want to end up by simply summarizing. The ground-based 
missile defense program offers no prospect of defending the 
United States from long-range missiles and undermines efforts 
to eliminate the real nuclear threats to the United States.
    Thank you very much.
    [The prepared statement of Ms. Gronlund follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you very much, Doctor. And we appreciate 
your testimony and look forward to the questions and answers.
    Dr. Garwin, if you might, please.

                  STATEMENT OF RICHARD GARWIN

    Mr. Garwin. I am Richard Garwin, and the title of my 
testimony is ``Ballistic Missile Defense in Context.''
    So, first, I want to make some general comments on BMD.
    Government programs, especially military programs, should 
be beneficial. That is, for the most part, they must pass the 
test of open analysis and not just plausibility. A program that 
is not effective is like a fraudulent cure for disease; it 
wastes money, but it also prevents the ill from receiving 
effective treatment.
    This country has a long history of programs attempting to 
defend against ballistic missiles. Some have made sense even 
though they were not pursued. Others have been flawed from the 
outset.
    Defending against nuclear weapons and the only other weapon 
of mass destruction, biological weapons, is extremely 
desirable, but if wishes were horses, beggars would ride.
    Mr. Tierney. My father had a different statement, but I 
think yours is a little cleaner than that.
    Mr. Garwin. The Missile Defense Agency [MDA], has 
responsibilities and capabilities in addition to its most 
costly and most publicized one of midcourse intercept of ICBMs 
from such states as Iran or North Korea. Some of these programs 
are quite effective, such as the recent demonstration that MDA 
can destroy low-orbit satellites, which is, however, like 
shooting ducks in a pond--protected ducks, in fact.
    But the primary responsibility, that of protecting the 
United States against attack by nuclear weapons or biological 
weapons, is a failure and will remain so for the foreseeable 
future, so long as MDA attempts to carry it out by midcourse 
intercept. There are three reasons.
    First, a state wishing to deliver nuclear weapons to injure 
the U.S. homeland would far more likely use short-range 
ballistic missiles or cruise missiles launched from a ship to 
attack U.S. coastal cities with nuclear weapons than use an 
ICBM for that purpose.
    Second, if a state did desire to use ICBMs, its delivery of 
bio-weapons would be more effective and impossible to counter 
by any proposed missiles defense if it used dozens of bomblets 
each equipped with its own heat shield. Separating as soon as 
the missile achieved its final speed and course in the vacuum 
of space, these scores or hundreds of bomblets could not be 
intercepted individually or collectively by the nonnuclear 
systems being deployed, and would fall to their targets in an 
urban area, posing a greater threat of death or disease than a 
single warhead containing the germs to be delivered.
    And, third, should a state be so misguided as to attempt to 
deliver nuclear weapons by ICBM, they could be guaranteed 
against intercept in midcourse by the use of appropriate 
countermeasures. The 1999 National Intelligence Estimate that 
the chairman displayed judges specifically that Iran or North 
Korea could have such effective countermeasures by the time of 
their first ICBM test.
    Now, a little bit more detail on each of these points, and 
then I would welcome questions for discussion.
    First, the use of nuclear-armed, short-range, ship-fired 
missiles. Iran has available Chinese-made HY-2 and C-802 cruise 
missiles, as well as SCUD-B ballistic missiles with a range of 
300 kilometers, 200 miles, and 1-ton payload that could be 
fired from ships. The United States now has no defense of 
coastal cities against the launch from a ship of such a missile 
carrying nuclear or biological warheads.
    The 1998 Commission to Assess the Ballistic Missile Threat 
to the United States stated clearly, the threat from ship-
launched ballistic or cruise missiles, validated in 2006 by 
MDA's chief of analysis and scenarios, as a way in which the 
adversary could achieve great strength at low cost, in analogy 
to the IEDs, improvised explosive devices, that are such a 
threat in Iraq, but in this case to deliver city-destroying 
nuclear weapons. That was Ben Stubenberg in 2006.
    Second, the ICBM with dozens or hundreds of bomblets and 
re-entry vehicles. ICBM delivery of a warhead containing 500 
kilograms of anthrax, a thousand pounds, or smallpox must 
provide a shield against the heat of re-entry and then a means 
of aerosolizing the bio agent so that it will remain suspended 
as it wafts across the city. It would be militarily more 
effective and, incidentally, proof against intercept by the 
midcourse interceptors to divide the payload into many few-
kilogram bomblets, each with its own heat shield and re-entry 
vehicle, the bomblets of the design from the U.S. Biological 
Weapons program in the 1960's, now declassified.
    Effective heat shields for re-entry are available from NASA 
data as described in a 2000 report of which Lisbeth Gronlund 
and I are co-authors and illustrated in my prepared testimony. 
So there is a nice little diagram.
    Countermeasures to intercept of a nuclear warhead. So the 
job of the Missile Defense Agency is midcourse intercept of the 
warheads. Others on this panel will discuss decoys and 
countermeasures in detail, although I am prepared to answer 
questions.
    Here, I just note that MDA claims now to be able to handle 
decoys on a few ICBMs launched from Iran or North Korea. But 
its director, in a 2007 article, writes, ``And the Multiple 
Kill Vehicle System is a generational upgrade to the land- and 
sea-based midcourse interceptors that will allow us to handle 
decoys and countermeasures.''
    But how does a system potentially available in the year 
2015 allow us to handle decoys and countermeasures now? This is 
not reality. A classified technical session devoted to the 
decoy problem and solutions could bring some assessment of the 
realistic performance of the system.
    So, specifically, here are several questions for the 
Missile Defense Agency.
    First, in the past, defense against ICBM delivery of bio-
weapons against U.S. cities was one of the goals promised by 
National Missile Defense. I remember Director General Kadish 
promising that. Does MDA now believe that the midcourse defense 
now deployed has the ability to defend against ICBMs equipped 
with scores of bomblets, re-entry vehicles that separate just 
after boost phase? Does MDA believe that threat is not 
realistic?
    I noticed that MDA no longer promises to defend against the 
bio-weapon and ICBMs. I think that is realism on their part, 
but they ought to be upfront about it.
    Second, in view of the 1999 NIE's judgment that Iran or 
North Korea would have decoys for their ICBMs by the time of 
the first flight test, can MDA point to a sound, technical, 
classified analysis that analyzes the performance of the 
present MDA deployed system against the suite of decoys stated 
as credible in the NIE that you saw on the display before, 
including low-power jammers, chaff, and simple balloon decoys.
    Third, in a June 28, 2007, presentation to a European Union 
body, MDA's executive director assumes, ``interceptor launched 
250 to 300 seconds after threat.'' That is 4 minutes to 5 
minutes after the ICBM is launched in Russia and is viewed by 
the infrared warning satellite system.
    In one of my papers, and I give the reference, I note that 
interceptor launched 50 to 100 seconds after threat launch was 
assumed by a very competent study. MDA's assurance that the 
interceptors in Poland would not be able to destroy even one 
Russian ICBM launched against the United States and the 
assurances of President Bush and Secretary Gates depend on this 
assumption of a 4- to 5-minute delay, 250- to 300-second delay, 
in launch of the interceptor. MDA should be requested to 
explain why an interceptor can't be launched less than 100 
seconds after a threat instead of this 250- to 300-second 
assumed delay.
    That completes my prepared testimony, and I would be very 
happy to answer any questions from the committee.
    [The prepared statement of Mr. Garwin follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you very much, Doctor.
    And I would like to inject, I understand there is a 
procedural vote that has been called on the floor. We are going 
to continue the hearing. So if anyone wants to go vote, you 
should feel free to do that.
    Mr. Kueter.

                    STATEMENT OF JEFF KUETER

    Mr. Kueter. Mr. Chairman, members of the subcommittee and 
Mr. Franks, I appreciate the opportunity to appear before you 
today to discuss the growing ballistic missile threat and the 
options that we are pursuing to defend against them.
    The ability to deliver ballistic missiles at long ranges is 
increasing among nations hostile to the United States. The 
ballistic missile's ability to act as an instrument of terror 
drives the desire to acquire missiles at longer and longer 
ranges. North Korea has many short- and medium-ranged missiles, 
yet it continues to pursue the Taepodong. Similarly, Iran is 
investing in longer-range missiles even though it, too, 
possesses a sizable short- and medium-range arsenal. Like North 
Korea, with whom they share critical technologies, designs and 
plans, the Iranians are seeking solid propellent technologies 
as well as new missile designs.
    Writing in 2001, Brookings Institution scholars Michael 
O'Hanlon and James Lindsay note the consequences: ``The 
prospect of wholesale slaughter is what gives long-range 
missiles their course of power.''
    Without a defense, the choices available to deter missile 
proliferators are unpalatable. In June 2006, as concerns about 
the North Korean ballistic missile test peaked, Ashton Carter 
and the former Secretary of Defense William Perry argued in 
favor of a preemptive strike to prevent the launch of the test 
missile. Should the same policy apply to Iran? What should the 
United States do when Iran is ready to test its space launch 
vehicle that will demonstrate its capability to have ICBM 
capabilities?
    The risks of such a strategy are obvious, and the 
consequences of the war it would start are grim. Even in the 
case of North Korea, such a provocative use of U.S. offensive 
military power risks too much.
    In December 2002, President Bush called for the deployment 
of missile defense assets capable of providing an initial 
defense against the rogue-state ballistic missile threat. The 
initial deployment was expected to be, ``modest'' but limited 
for available defensive missions beginning in 2004. These 
efforts were clearly considered, ``just a starting point,'' for 
the development of improved and expanded capabilities.
    Today, the United States has 24 ground-based midcourse 
interceptors in Alaska and California, with a total of 30 
planned for by the end of 2008. Twelve Aegis ships are equipped 
with long-range surveillance and track capabilities. Conversion 
of six more are planned by the end of the year. These vessels 
are also outfitted with the standard Missile-3 interceptors.
    The Patriot PAC-3 terminal defense system is in the hands 
of the U.S. Army. The construction and integration of the 
Fylingdales radar in the United Kingdom, the Cobra Dane radar, 
the sea-based X-band radar, and the forward-based transportable 
X-band radar, in addition to the development of the 
communications and battle management systems and software 
linking all of them together, enlarge the battlespace, provide 
overlapping fields of vision to increase the accuracy of the 
tracking data, and ease the handoff of information to the kill 
vehicle.
    The hit-to-kill approach has been successfully demonstrated 
34 times by various systems since 2001. Dr. Charles McQueary, 
the current director of the Operational Test and Evaluation 
Office at the Department of Defense, told the Senate earlier 
this month that, ``Hit-to-kill is no longer a technical 
uncertainty. It is a reality, being successfully demonstrated 
many times over the past few years. There is still a long way 
to go, but the MDA's disciplined and principled approach to 
flight and ground test is continuing to pay real dividends.''
    Last fall's midcourse defense flight test shows just how 
far we have come. The September test had service men and women 
crewing the interceptors, the radars and the fire control 
system and target intercept geometries based on the North 
Korean launch against the continental United States. 
Approximating conditions reminiscent of the summer of 2006, 
when intelligence reports provided rough estimates of the times 
when North Korea might test its Taepodongs, the warfighter only 
received notice that the window for the test was opening and to 
be on alert, forcing them to react immediately when the target 
was launched. Similar approaches are taken for the flight tests 
of the other systems.
    On the issue of countermeasures, successfully developing 
and using them requires detailed knowledge of the defensive 
system, exemplary systems engineering to ensure they function 
properly with the warhead and flight testing. Detailed 
technical information about the operational characteristics of 
the U.S. system is not readily available.
    Flight tests should allow for the study of the performance 
and then modification of our own responses. Should flight tests 
be foregone to avoid such detection, the prospective attacker 
introduces significant risk of failure into their missile 
arsenal. Our system was tested with these known countermeasures 
in seven ground and flight tests between 1997 and 2000. And 
since that time, the target acquisition, discrimination and 
terminal homing abilities of the kill vehicle are tested 
regularly, with 2008 plans calling for the resumption of active 
flight testing against countermeasures. Future plans entail the 
use of ever more advanced sensors and algorithms, as well as a 
volume kill capability.
    On the question of cost, only once in more than 25 years 
has the missile defense's share of the total defense budget 
exceeded 2 percent of the annual budget, and that occurred in 
fiscal year 2002 when it reached exactly 2 percent. In recent 
years, the total varies from 1.3 to 1.6 percent of the defense 
budget, I believe an adequate investment and insurance against 
an unthinkable outcome.
    Like any development program, changing priorities and 
requirements add delays. With goals changing over the long 
period of time from the early 1980's, when the focus was on 
space and global defense, to theater defense in the early days 
of the Clinton administration, and now to midcourse rogue 
threats, these require distinctly different approaches and 
different weapons systems were pursued, creating a start-and-
stop acquisition process that inflated costs.
    In conclusion, the decision to deploy missile defense 
assets as they mature is driven by the desire to provide the 
building blocks of a defense against emerging threats. The 
simple fact is that not all threats are known or will be known, 
and in the current security climate many are not deterrable. 
Even in the current form, the elements of a U.S. missile 
defense system offer options heretofore unavailable. With 
further research, development and testing, the accuracies and 
capabilities of these systems will only improve. Further 
improvement is essential, but the progress is positive.
    NATO's recognition of the threat posed to Europe from 
ballistic missiles is an important recent indicator of the 
seriousness of the situation. That NATO and 17 other nations 
are working with the United States on missiles is further 
evidence that ballistic missiles are recognized as a global 
security challenge and that the approaches outlined by the 
United States are valid.
    Thank you for the opportunity to appear today.
    [The prepared statement of Mr. Kueter follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you for your testimony.
    Mr. Coyle, we are pleased to hear from you.

                   STATEMENT OF PHILIP COYLE

    Mr. Coyle. Thank you, Mr. Chairman. Chairman Tierney, 
distinguished members of the committee, I very much appreciate 
the opportunity to appear before you today to support your 
examination of the DOD missile defense programs.
    The Pentagon is developing a variety of missile defenses, 
but the ground-based midcourse system, the GMD system, is the 
largest, most costly and complex of the systems. And my remarks 
focus on that system today. It was, once upon a time, called 
National Missile Defense.
    In my full prepared testimony, I raise a number of issues 
that I think the Congress should examine. Quickly, those are: 
No. 1, the technical and operational performance of the GMD 
system and the lack of operational criteria by which the 
Congress can judge success; No. 2, inconsistent and inaccurate 
information from the Pentagon with respect to both system 
performance and the threat; No. 3, the lack of demonstrated 
performance of the GMD system against realistic threats 
involving decoys and countermeasures, as well as in common 
operational environments; No. 4, the cost, dollar cost; No. 5, 
the vulnerability of the GMD system to a direct attack; No. 6, 
the successes of U.S. diplomacy, which has been our most 
effective missile defense; and, seven, the ways in which 
missile defenses can undermine America's arms control and 
nonproliferation objectives.
    Mr. Chairman, as you referred to it earlier, former Senator 
Sam Nunn has said it best: ``National missile defense has 
become a theology in the United States, not a technology.'' As 
a result, U.S. missile defenses are being deployed without 
well-established operational criteria. How good is the system 
supposed to be? Is 10 percent effectiveness good enough, or 1 
percent? Can the system handle real threats assessed by the 
Intelligence Community? How many interceptors should be 
required to defeat one target? Without answers to such 
questions, it is very difficult for you, the Congress, to 
evaluate missile defense programs.
    The MDA says it can only defend against, ``an 
unsophisticated threat,'' that is, just one or, at most, two 
missiles from Iran or North Korea, with no decoys or 
countermeasures. Should you believe that Iran or North Korea 
would be reckless enough to attack Europe or the United States 
with a single missile, with no decoys or countermeasures, and 
then sit back and wait for the consequences? As we know, 
ballistic missiles have return addresses. If Iran or North 
Korea were reckless enough to attack Europe or the United 
States, they wouldn't launch just one missile. And if they 
launched several missiles with decoys and countermeasures, U.S. 
missile defenses couldn't deal with it.
    Decoys and countermeasures are the Achilles heel of missile 
defense. Shooting down an enemy missile going 17,000 miles an 
hour out in space is like trying to hit a hole-in-one in golf 
when the hole is going 17,000 miles an hour. And if an enemy 
uses decoys and countermeasures, it is like trying to shoot a 
hole-in-one when the hole is going 17,000 miles an hour and the 
green is dotted with black circles the size of the hole and the 
defender doesn't know which to aim for.
    The assessments by the Intelligence Community that North 
Korea and Iran would soon know how to field such decoys and 
countermeasures, if they didn't already, has already been 
referred to, made back in 1999.
    From a target discrimination point of view, a recent GMD 
flight intercept tests have actually been simpler and less 
realistic than the tests more than 5 years ago. None of the GMD 
flight intercept tests have included decoys or countermeasures 
for the past 5 years. The GMD system has no demonstrated 
effectiveness to defend the United States or Europe under 
realistic operational conditions.
    In its fiscal year 2008 budget request, the Pentagon 
acknowledged this, saying, ``This initial capability is not 
sufficient to protect the United States from the exigent and 
anticipated rogue-nation threat.'' The MDA budget also reveals 
that the MDA wants the proposed missile defenses in Europe to 
protect existing radar sites in Greenland and the United 
Kingdom, not, first and foremost, to defend Europe.
    In the past 5 years, only two GMD flight intercept tests 
have been successful. Yet, the MDA must conduct another--about 
20 different flight intercept tests before it might be prepared 
for realistic operational testing. At that rate, it could take 
the Missile Defense Agency 50 years to be ready for realistic 
operational testing. Developmental tests are still needed to 
show that the system can work at night, in bad weather, when 
the sun is shining in the wrong direction, when the enemy re-
entry vehicle uses stealth, when more than one missile is 
launched by an enemy, and so forth.
    The fiscal year 2009 President's budget asks for over $12 
billion for DOD spending on missile defense. And, over the next 
5 years, that budget request calls for $62.5 billion to be 
spent on missiles. If the Congress supports this, by the end of 
2013, 5 years from now, over $110 billion will have been spent 
since 2003, not counting prior spending in the previous 
decades.
    Since there are no operational criteria established for the 
system, the Pentagon doesn't know what the eventual costs might 
be. The costs are open-ended, and there is no end in sight.
    Too often the White House, the Pentagon or the MDA makes 
statements that could mislead the Congress and the media. My 
prepared statement gives a few examples.
    Major elements of the U.S. missile defense system are 
vulnerable to direct attack. For example, the floating sea-
based X-band radar is literally a sitting duck. So, also, are 
the early warning radars in Greenland and in England, as would 
be the radar proposed to be sited in the Czech Republic.
    The Pentagon does not explain it, but we need to remember 
that if we ever need to rely on missile defenses against ICBMs, 
it would be in an all-out nuclear war, mushroom clouds and all. 
The Congress could examine whether missile defenses could be 
depended upon under those circumstances.
    Diplomacy has been our most effective missile defense. In 
my full statement, I describe how in 1999 Dr. William Perry and 
now more recently Ambassador Christopher Hill have shown that 
effective diplomacy is hard to beat. The U.S. proposal to site 
missile defenses in Poland and the Czech Republic has alienated 
Russia and upset the overall strategic balance to a degree not 
seen since the height of the cold war, but for no good purpose. 
The proposed U.S. system has no demonstrated operational 
effectiveness to defend Europe nor the United States.
    Americans have a tendency to over-rely on technology as the 
first best hope to solve our problems. With missile defense, 
the United States has been trying for 60 years without success. 
Other approaches are needed.
    Mr. Chairman, thank you for your attention.
    [The prepared statement of Mr. Coyle follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you very much.
    I want to thank all four of our witnesses for their 
testimony and commend their written testimony in full to the 
members of the committee, because you got to synopsize most of 
it, some of you all of it, but I think all of it as written is 
very worth reviewing.
    We are going to proceed to questions and answers and try to 
do 5-minute rounds, but, again, we are going to be a little bit 
over the time on that if we need be.
    Mr. Lynch, if you are prepared, I am pleased to let you go 
first. I know there are some other votes. I will let you and 
Mr. Franks go first, and I will just stay through the votes.
    Mr. Lynch. Thank you, Mr. Chairman. I appreciate that. I 
want to thank you for holding the hearing, and the ranking 
member as well.
    And I want to thank our panelists for sharing their 
perspective on this.
    It just so happens this weekend, after visiting Iraq, I had 
a chance to stop in Brussels and talk to the NATO folks, and 
this issue came up. Let me just say that I came away from my 
meeting with our Ambassador and also other folks at NATO with 
the sense that this was going ahead, that this process of 
locating missile defense units in Czechoslovakia and Poland was 
going forward.
    And while I spoke on behalf of this committee to say that 
we had great reservations and that we were not on the same page 
with that idea from the administration, it is alarming that at 
least there are some in the administration who are just 
proceeding full speed ahead with this.
    I would like to ask you, Mr. Coyle--I thought your 
testimony was very helpful. All of the testimony was helpful. 
But the testing protocols that have been used in the past, I 
notice that you noted that since 2000 there have been 13 tests, 
and 6 were not--well, basically, 6 were failures; 7 were 
successful. But, more alarmingly, since 2003, the more recent 
tests, five tests since then, only two have succeeded, and 
three have not. And, yet, here we are, going forward with a 
program that could be hundreds of billions of dollars. And, as 
you have noted in all the testimony, there seem to be valid 
countermeasures that would make this expenditure a nullity.
    What would you see as being--if we were going forward with 
trying to vet this system, what would the next step be for us, 
for the members of this committee? If we wanted to get a sense 
of the workability of this system, what would be the next step, 
based on your own assumptions? Not the assumptions of the 
administration, but your own assumptions.
    Mr. Coyle. Thank you, Mr. Lynch.
    The Congress has required in, I believe, the Fiscal Year 
2008 Defense Authorization Bill, the Congress has required the 
Pentagon, through its Director of Operational Tests and 
Evaluation, to provide a report as to whether or not the 
proposed missile defense system for Europe that you mentioned 
at the beginning of your question would work, would be 
effective with high reliability under realistic conditions. 
They required a report, would it work or would it not work with 
high reliability under realistic conditions.
    I think NATO would be smart, and for that matter so would 
Poland and the Czech Republic, to require exactly what the U.S. 
Congress has asked for, is to show me--you know, I am from 
Missouri--show me whether this system would work with higher 
reliability. I think that same approach could work for the 
program that is being conducted here in the United States.
    Basically, what we have with the GMD program and with 
several other missile defense programs is a procurement program 
masquerading as an R&D program. It is an R&D part of the 
budget, which is fine; that is where it belongs, it is still an 
R&D program. But we are buying massive amounts of gear, of 
equipment, and deploying it all over the world without knowing 
how effective is.
    I think the Congress could basically apply the same 
standard that it has already applied to the proposed systems in 
Europe to work that is ongoing by the United States.
    Mr. Lynch. Thank you.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you.
    Mr. Franks, you are recognized for 5 minutes or more.
    Mr. Franks. Thank you, Mr. Chairman.
    Let me first say, sir, I just want to express sincere 
gratitude that you would allow me to speak here. It is not 
something that you have to do. To the entire committee and the 
staff, this is a courtesy, and I fully realize that and truly 
appreciate it.
    As it happens, I am a member of the Strategic Forces 
Subcommittee on the Armed Services Committee, and this issue 
has been one of great interest to us and one that we have tried 
to work in bipartisan fashion on the committee. In fact, Mrs. 
Tauscher is holding oversight hearings tomorrow.
    So let me just begin by saying I wish that we did not have 
intercontinental ballistic nuclear missiles in this world. I 
wish they did not exist. But since man first took up arms 
against himself or his fellow human beings, there has also been 
offensive weapons, and the effort has been to build a defensive 
response to those. And, unfortunately, that matrix continues 
forward.
    And when it comes to intercontinental ballistic missiles 
with nuclear warheads on them, I believe that it is vital that 
we have the best defense that we can devise, even if it is not 
perfect, given the fact that if one lands in one of our major 
cities, 100,000 people will die in a blinding moment, and 
400,000 or 500,000 more will die within a week or two or three.
    So, it occurs to me that even though many things that the 
panelists have said as far as the system being imperfect are 
correct, it does remain that we need the best defense that we 
can. The threat does exist. And I would certainly be open to 
any better answers.
    But as of December 31, 2007, we have begun to do some 
things that are pretty significant. We have fielded 21 ground-
based interceptors at Fort Greely, AK, and three more to 
Vandenberg, and we are now able to provide a limited defense 
against a threat from North Korea. We have also upgraded 10 of 
our Aegis ships for ballistic missile defense capability, and 
we have armed them with 21 SM-3 interceptors to devise a 
defense against short-, medium- and intermediate-ranged 
missiles. Seven more destroyers have also been put in place for 
long-range surveillance and tracking ability.
    It is important to note that 26 of the last 27 flight tests 
for missile defense have been successful, 26 of the last 27. 
There were those that, some years ago, when it seemed that the 
only possible hope that we would have would be mutually assured 
destruction, said we would never hit a bullet with a bullet in 
the sky. That is not true any longer. We can hit a dot on a 
bullet with a bullet in the sky these days. And it is a 
significant thing.
    Two things have changed since this debate first began. 
First, we now know that missile defense is possible. It is not 
perfect, but it is certainly possible. We also have seen 
Jihadist terrorism come up on the scene, who cannot be deterred 
by the threat of response and who--some of their leaders call 
Armageddon a good thing.
    These are situations that we need to consider.
    Related to countermeasures, I can only assure you my 
community hears of these issues all the time, and our people 
are at work, and I believe progress will be made. And I believe 
it is always bad to bet against the innovation of the American 
people.
    Mr. Coyle mentioned that to hit these missiles is like 
hitting a hole in one when the hole is moving at 17,000 miles 
an hour, and he is precisely correct. But that is also 
precisely what we did with a satellite coming in at 17,000 
miles an hour in a situation where we could never have 
orchestrated such a scenario. We didn't just hit the satellite. 
We had to hit the center force of the satellite with the 
hydrazine tank, and we did that. We did that from a ship 
floating in the ocean in the Pacific, you know, and the target 
was 250 kilometers away in space. This is an amazing, amazing 
accomplishment. Again, it is not perfect, but we have made some 
tremendous progress.
    I am reminded that two airplanes hitting two buildings in 
New York cost this economy nearly $2 trillion, and I don't even 
know how to begin to estimate what one ballistic missile from 
Iran hitting New York with a 100-kiloton warhead on it would do 
to our economy and to our concept of freedom. I can only 
suggest to you that it would be very profound.
    And I know there may be a day when people will look at us 
and say you built a system that we didn't need, it was 
expensive, it cost hundreds of billions of dollars; and we may 
have to apologize to the American people for doing that. And, 
Mr. Chairman, I would be glad to come back to this committee 
and stand in any line and gratefully and humbly apologize to 
the American people for building such a system that we did not 
need.
    But in the world that we live in, I fear that Iran and 
other countries, terrorist groups, may be able to come up with 
something that again would change our concept of freedom 
forever; and I don't want to be one to have to apologize to 
people that have survived such a tragedy and say to them we 
failed to build a system when we could have.
    And, again, I can't express enough gratitude to all of you 
for allowing me to speak. You are erudite people on the 
committee here and on the panel. I appreciate their 
perspectives. I hope that we can work together to turn mutually 
assured destruction into mutually assured survival. I hope we 
can work together to save and protect our citizens against 
potential nuclear missiles, rather than to avenge them if such 
a tragedy occurs. And I thank you, Mr. Chairman, for allowing 
me to talk.
    Mr. Tierney. Thank you, Mr. Franks. I appreciate you 
joining us, and I appreciate your comments.
    I don't know where to start here. There is a little bit of 
ground to cover.
    Let me start by asking whether or not it is realistic in 
the view of any of the people on the panel here that Iran or 
North Korea had they--if they had in any foreseeable or 
reasonable amount of time the capacity to send a nuclear ICBM 
to the United States, is it foreseeable by any of you that they 
would be crazy enough to do that, given the fact that their 
sending one over has a return address, as Mr. Coyle said? Are 
you aware of any nation right now that would take that risk?
    We will just go right across the board. Ms. Gronlund.
    Ms. Gronlund. No.
    Mr. Tierney. Mr. Garwin.
    Mr. Garwin. I think that Iran and North Korea are both 
deterrable. That doesn't mean that we should encourage them to 
build nuclear weapons and delivery means. But I emphasize that 
the problem is not apologizing for a system that works. It is 
apologizing for ignoring the fact that the system that we build 
will not work because it ignores--specifically ignores the real 
threat that the short-range missiles that these countries have 
long possessed can be equipped with nuclear weapons or 
biological weapons far more readily and can attack the United 
States. So if not deterrable, then the countries would choose 
that rather than the ICBM approach.
    And you don't need to know much about the defense in order 
to realize that a warhead enclosed in a large balloon is proof 
against the hit-to-kill interceptor because it doesn't know 
where in that balloon the warhead is.
    So if MDA will only realize that and acknowledge it, then 
they might begin to propose fielding multiple warheads, 
multiple interceptors against each offensive missile in order 
to sequentially deal with the countermeasures. But if they 
don't admit it, then they will lead us down the road of false 
security, of fake cures for the illness, which is where we are.
    Mr. Tierney. Thank you.
    Mr. Kueter.
    Mr. Kueter. I believe we need to be concerned about leaders 
in North Korea and Iran threatening the use of these missiles.
    Mr. Tierney. No, my question was, do you personally want to 
say on the stand here you believe either one of those countries 
would send over a single missile and--just send it over?
    Mr. Kueter. I believe they might.
    Mr. Tierney. That is interesting to know. Thank you.
    Mr. Coyle.
    Mr. Coyle. I was in Europe a couple of months ago. And 
talking with people in Europe, they were quite surprised about 
the missile defenses that are being proposed by the United 
States for Europe, because they don't see that Iran has any 
reason to attack them. North Korea is too far away, and they 
don't see any reason why Iran would attack them. And I agree 
with that.
    Does that mean that Europe should, you know, be careless 
about future threats? Of course not. But people that I talked 
with in Europe just didn't understand why they would be the 
threat.
    Mr. Franks spoke about terrorism, and I think that is 
something that we should be concerned about. But, of course, 
missile defense is useless against terrorism. It doesn't work 
against terrorism. So as much as we might worry about terrorism 
and want to do some things about it, missile defense is not the 
solution.
    Mr. Tierney. Thank you.
    And I might just note I think it is also unrealistic to 
think a group of people involved in acts of terror are going to 
acquire missile technology, have a place to house it, put it 
together, and be able to send it over again.
    I wish Mr. Franks had stayed to hear some of the 
conversation back and forth. I think it might have been 
helpful, useful.
    Mr. Franks did say he thought 26 of the 27 flight tests 
were successful. Doctor Gronlund, you want to address that for 
us? I don't have that recollection, and my statistics don't 
match up.
    Ms. Gronlund. I do. I think there is confusion about short-
range missile defenses and long-range missile defenses, and the 
number he cited must include a lot of tests of short-range 
missile defenses. The fundamental difference between the two is 
long-range missiles spend a lot of time outside the atmosphere, 
where there is no air and, therefore, no air resistance. And 
because of that it is very easy to deploy decoys, because they 
will travel on the same trajectory through space. So it becomes 
very hard to distinguish one object from another.
    That is not true for short-range missiles. They don't spend 
a lot of time in the atmosphere. There are different kinds of 
countermeasures, but it is not on the same scale.
    And so you see that the Army itself has chosen to pay for 
some Patriot batteries; and, you know, they obviously have 
decided that this is something they want to spend their money 
on. That is not the case with mid-course defense against long-
range missiles.
    The other key difference is that the only long-range 
missiles deployed in the world are tipped or have nuclear 
weapons. So you get into this inherent problem that countries 
we are seeking to deter, who are seeking to deter us, and that 
would be only Russia and China, find missile defenses 
inherently destabilizing. That is not true for short-range 
missiles, which are generally armed with conventional warheads.
    So I think, you know, citing 26 out of 27 is a deliberate 
muddling of these two very different technologies; and just 
because we know we can get short-range missile defense to work 
some fraction of the time has nothing to say about long-range 
missile defenses and their effectiveness. Neither does shooting 
down our satellite.
    Mr. Tierney. I wanted to cover that. Dr. Garwin, you might 
address that.
    You mentioned in your remarks hitting that satellite was a 
bit like hitting a duck sitting on a pond. Mr. Franks and 
others, I should say, have made a big deal about that and 
somehow tried to loop it into some association with our missile 
defense and the mid-ground-based prospect we have here. Can you 
clarify that for people?
    Mr. Garwin. Well, I point out that on January 11, 2007, 
China destroyed one of their satellites in the same way. So 
they did it first. They did it with the same hit-to-kill 
approach. Not so hard with a satellite, because it is highly 
visible, highly predictable. And in fact for many decades I 
have published proposals to show that space-based defenses 
really are infeasible because they can be countered by low-tech 
means, just as China did by lofting SCUD missiles, available by 
the hundreds or thousands, with a ton of gravel to orbital 
altitude and detonating there so that the satellite destroys 
itself by running into the gravel. So very different from 
striking in mid-course a warhead that does not want to be 
destroyed.
    And you don't need to know much about the defense. If the 
defense takes seconds to understand the rotational 
characteristics of the decoys and the warhead, well, all you 
need to do is to arrange a ``Sally Rand,'' a dance of balloons, 
little balloons so that you have an ever-changing aspect; and 
there is nothing that you can count on. It has never been seen 
before. It will be the first time you see it. And everything 
could be a warhead. Everything could be a decoy.
    In the earlier go-round on missile defense Don Brennan, a 
very capable political scientist, argued that our allies in 
Europe demanded missile defense. They were unhappy with 
protection by means of deterrence against the undeterable 
Soviet threat.
    And then he spent a couple of weeks in Europe actually 
gauging the sentiment of the leaders and the legislators there, 
and he came back very chastened. In fact, our allies were quite 
satisfied with deterrence; and they didn't need and found 
missile defense to be potentially provocative.
    So you must remember that President Nixon negotiated the 
ABM Treaty of 1972, which denied us any capability of defending 
the U.S. population against attack by the Soviet Union. And 
that was in part because of the massive capability that the 
Soviet Union possessed, but it was in part because of the 
recognition that we would be unable to defend against--with 
mid-course intercept--to defend against even a small number of 
weapons. And that would be even with the nuclear-armed 
interceptors that were available then and that we fielded in 
small numbers, a hundred interceptor limit under the 1972 ABM 
Treaty.
    So you really must address the lack of capacity of the 
existing system and the fact that ingenuity goes both ways. We 
are not working against mother nature. Ingenious as she is, she 
doesn't see what we are doing and deploys more systems, more 
capabilities against it.
    The other side is ingenious, too. Technology develops on 
both sides, and the defense has a much more difficult row to 
hoe than the offense under these circumstances of intercept in 
space.
    Mr. Tierney. Well, I guess that would sort of go to the 
fact of Mr. Coyle's--I think it was one of Paul Nitze's 
criteria for this back in the Reagan years, that you have to 
have the cost-effectiveness on the margin. It would be less 
costly to increase your defenses than it would be for them to 
increase their offenses. And that doesn't seem to be the case 
here.
    Mr. Kueter, let me ask you--and I don't want you to think I 
am attacking you in any way here--but you are not a physicist, 
are you?
    Mr. Kueter. That is correct. I am not.
    Mr. Tierney. Do you have a science background? I look at 
your degrees or whatever, and I didn't----
    Mr. Kueter. No, sir, I do not have an academic science 
background.
    Mr. Tierney. Given you are surrounded by physicists here, 
people that are pretty well steeped in that order, what do you 
say when they say what they are saying about the decoys? And 
what basis do you have for your conclusion that may differ from 
theirs?
    Mr. Kueter. Well, sir, I have talked to the people that are 
working on the program. I have talked to other physicists that 
have studied the program. They have assured me to the level 
that I am willing to come and sit before you today and say 
under oath that I believe this system is working.
    The problem of trying to discriminate countermeasures is 
very hard, that it has some of the finest people in the world 
working on developing and studying what the countermeasures 
that might be deployed against it and devising ways to overcome 
it, that we have sophisticated algorithms and discrimination 
capabilities designed to do exactly the job that these 
gentlemen are describing that the system needs to do, that they 
have tested it in ground simulations numerous times over the 
past 6 or 7 years, and that in the year to come we will see the 
system do what it is designed to do, namely, discriminate 
against countermeasures in a flight test.
    Mr. Tierney. That is fine. I would just tell you I have sat 
through classified and unclassified sessions. I have sat 
through these same types of assurances for 12 years that have 
never really come to fruition on that, and that is why I was 
curious as to what you were basing it on. I was hoping you 
weren't going to say you were basing it on the same people that 
have been giving us this line for a dozen years, but it appears 
to be the case.
    Mr. Coyle, you are fairly knowledge about the classified 
and unclassified aspects of this. Do you have great confidence 
that the issue of decoys is going to be resolved anytime soon?
    Mr. Coyle. It is really a tough, tough problem. You know, 
it is hard to get a scientist to say that anything is 
impossible, but it is a really difficult problem. We know how 
to make balloons in the shape of Mickey Mouse ears, so I am 
sure that North Korea or Iran can make a balloon in the shape 
of an ice cream cone, big ice cream cone, which is what a 
reentry vehicle looks like.
    Out in space, that balloon travels just as fast as the 
reentry vehicle. Out in space, a feather and a lead brick 
travel just as fast as each other, and so you can't tell them 
apart easily. If you could somehow magically be transported out 
into space and could weigh them or touch them, you could tell 
them apart easily. But very difficult to do that with sensors 
on a kill vehicle. Just really tough job. And so, no, I don't 
see that coming to pass.
    And that was the whole point of IFT-1A that Dr. Gronlund 
referred to in her testimony. That test took place when I was 
in the Pentagon. I oversaw that test, and it was a kind of test 
that at the time we knew many more like it were to be done. 
There were supposed to be many more tests, because we knew how 
difficult this problem would be of discriminating between 
similar-looking objects. Unfortunately, the results of IFT-1A 
got misrepresented, and there haven't been other IFT-1As since. 
So the Pentagon really doesn't have information such as they 
would have possibly gotten if there would have been a testing 
program with many complex target sets to look at.
    Mr. Tierney. Thank you.
    I mean, I was looking at Theodore Postal--I think most 
people on the panel, if not all the people, are aware of 
Theodore Postal out of MIT wrote a recent op-ed piece in the 
Boston Globe, April 15, 2008. In it he said, in June 1997 and 
January 1998, the Missile Defense Agency conducted two proof-
of-concept missile defense tests aimed at demonstrating that 
missile defense kill vehicles could tell the difference between 
warheads and decoys. The tests were simply aimed at determining 
if the objects could be observed with enough precision to match 
what was expected to what was observed. One of the flight tests 
took no usable data, and the other could not have succeeded 
because certain decoys accurately mimicked the appearance of 
the warhead.
    I--meaning Ted Postal--believe the Missile Defense Agency 
made false statements to Congress that the tests were a 
success, and it modified all of its followup flight tests so 
that they could never encounter the simple and effective decoys 
used in the earlier proof-of-concept tests.
    Do you members of the panel agree with that assessment. Ms. 
Gronlund.
    Ms. Gronlund. I am sorry. Would you repeat the question?
    Mr. Tierney. You want me to repeat the question. Did you 
hear any part of what I read?
    Ms. Gronlund. Yes, I did. Just the last clause.
    Mr. Tierney. The last clause of Mr. Postal's or the last 
clause of mine?
    Ms. Gronlund. Well, back to where I asked you to repeat. 
Just repeat the----
    Mr. Tierney. The last part was whether or not you agree 
with that assessment, Mr. Postal's assessment.
    Ms. Gronlund. I do. In fact, that is why I raised the issue 
of the IFT-1A test. And I do want to note that I think it was 
IFT-1B that actually did take some data.
    But the underlying assumption was that so you had an array 
of objects that had a different infrared signature so that they 
were--they did appear to be different to the kill vehicle, and 
the kill vehicle had been told in advance what the warhead 
would look like. And that's not something you would know. So, 
again, even at that level, which was a proof-of-concept test, 
it wasn't realistic.
    Mr. Tierney. And have they then decreased the complexity of 
the tests?
    Ms. Gronlund. They have. In fact, there is a very 
interesting table of the planned test program that goes back to 
that period of time where they did plan to introduce decoys of 
various types, and it hasn't happened. It's gone. That whole 
schedule has--you know, it has disappeared.
    Mr. Tierney. Dr. Garwin, do you agree with Mr. Postal's 
assessment as well?
    Mr. Garwin. Yes, I agree. I don't necessarily agree that 
the MDA misrepresented to Congress. I think that the people who 
spoke to Congress may not have understood. They may, like Mr. 
Kueter, have talked with people who assured them that it was 
OK. But they ought to go back and look at the primary data and 
do it in an adversarial context so that Dr. Postal and the 
authorities in MDA have a chance to present and to confront one 
another with their analyses. That is how you come to truth in 
the scientific field.
    Mr. Tierney. Mr. Kueter, do you agree with Mr. Postal's 
assessment?
    Mr. Kueter. No, I do not; and I would encourage those that 
are interested in this topic to ask General Obering and his 
associates when they appear before you about the ground 
simulation tests that this kill vehicle has undergone over the 
last several years at the Adak facility. I think you will learn 
quite a bit about the capability of this kill vehicle against a 
countermeasure program.
    Mr. Tierney. You are talking about the capability of the 
kill vehicle. You are not talking about real tests. You are 
talking about simulations, right?
    Mr. Kueter. Well, the decision was made at some point in 
time to flight test the system to make sure that it would work. 
You have to remember that it ran into significant problems with 
its booster, as well as quality control issues that precluded 
the kill vehicle from separating from the interceptor. It was 
important to make sure that we could get it to work before we 
started dealing with the problem of complex countermeasures. 
That is why I believe there are delays in the GMD testing 
program and why we have not as many flight tests as we all 
would have liked by this point in time. The September test 
certainly indicates that we have resolved those booster and 
quality control problems, and now we are ready to test it in 
flight against this issue of countermeasures.
    The other point that I would make that is different from 
the first series of flight tests is that we now have much more 
robust sensor capabilities that allow us to have overlapping 
fields of vision in space that will help this discrimination 
and detection capability, in addition to the expansion of the 
algorithm capability over the last 6 or 7 years.
    Mr. Tierney. Thank you.
    Mr. Coyle, do you agree with Mr. Postal's assessment here?
    Mr. Coyle. Yes, I do. I can't emphasize strongly enough 
that the test IFT-1A is the kind of thing that was originally 
going to be done, you know, several times, many times so that 
you could really see what you could do with these infrared 
sensors. But the Missile Defense Agency has known almost from 
the outset that they weren't going to be able to do it with 
only infrared sensors, that it was going to take a variety of 
different kinds of sensors, and even then it might not work.
    So, for example, one of the things that the Missile Defense 
Agency has talked about over the years is adding to the kill 
vehicle, in addition to the infrared sensors, two colors of 
infrared that it currently has, adding to the kill vehicle a 
radar sensor, some type of on-board radar to the kill vehicle, 
and then also adding maybe visible sensors in the visible 
wavelengths and other types of sensors. And the idea is if we 
can just get enough different kind of sensors, you know, maybe 
we can tell. If we get enough information on those targets 
maybe we can sort through them and figure out which is which 
and which is the real reentry vehicle.
    But it is kind of like the old story about, you know, the 
two guys in prison. And one guy says, you know, I am really 
sick of being in prison now. I am going to offer to the king to 
teach his horse to speak. You know, and the other prisoner 
says, well, teach the horse to speak? How are you going to do 
that? And the first prisoner says, well, you know, the king 
could die, the horse could die, or what the heck, maybe I can 
teach the horse to speak.
    When you talk about, well, if I just get more sensors on 
the kill vehicle and, you know, if I do enough different things 
maybe I will finally be able to figure it out, it is a little 
bit like trying to teach the horse to speak.
    Mr. Tierney. What about what Mr. Kueter says about all 
these simulator tests and all this? How does that play in?
    Mr. Coyle. Well, the simulations are a fine thing to do. 
They are an important thing to do. But as the Director of 
Operational Testing in the Pentagon today has written, those 
simulations haven't worked out so far.
    Mr. Tierney. Now even if they did work, there is a 
difference, is there not, between a simulation and actually 
using the actual kill vehicle and putting it through some sort 
of realistic operational type of test?
    Mr. Coyle. Absolutely. That is why we do flight intercept 
tests. You know, simulations are great, but time and again you 
see when you get into realistic conditions that the simulation 
didn't really capture the real world, and you get quite 
different results. Many failures are simply because the 
simulations didn't capture what really happens in the real 
world.
    Mr. Tierney. Let me ask the witnesses, you know, how many 
tests would we have to run successfully before we really had 
confidence in the system? You know, if we run and test some 
aspect of this system and it works once, should we just move 
onto the next point or is there some standard that we are 
trying to reach here where we think it ought to operate 
successfully so many times in a row before we move to the next 
point? Dr. Garwin.
    Mr. Garwin. We put a lot of effort into this year 2000 
report available on the Web, ``Countermeasures: A Technical 
Evaluation of the Operational Effectiveness of the Planned U.S. 
National Missile Defense System,'' and the countermeasures that 
we discuss there are intentionally those that require very 
little knowledge of the defensive system.
    So if we know that it depends on infrared sensors, we have 
countermeasures that will entirely defeat the system by having 
not all of the decoys look the same, having a spectrum, a 
variation of appearances of the decoys which overlap the 
spectrum of variation of the warheads; and these would never be 
tested in such a way that the United States would have good 
measurements of them. Mostly, they would do ground simulations 
on their side. And it is a lot easier on the offense to do 
ground simulations because you don't have to take the defense 
into account.
    And that is where perhaps BMD learned that it was really 
possible to have bomblets for bioweapons with individual heat 
shields, and so they have taken those things off the threat 
that they are promising to protect against, and they should now 
confront the fact that they have no discrimination against 
these balloons. And if they admit that, then they might have 
active discrimination. But they won't ever get active 
discrimination which has a prospect of working unless they 
admit that their system will not work----
    Mr. Tierney. What is ``active discrimination?''
    Mr. Garwin. Active discrimination means they would take a 
considerable fraction of their interceptors and arm them with 
gas clouds, essentially, that would push on the light-weight 
balloons. And they would also push on the reentry vehicles, but 
they wouldn't move so much. And so you can in principle have a 
means of discrimination in that way. But you will never get it 
unless they admit that their system, as configured now, will 
not work.
    Mr. Tierney. What if they use some other type of decoy 
other than the one that the gas would have an impact on?
    Mr. Garwin. Well, it is not so hard to see in the budget 
that we have active discrimination. And then the other side 
would start to think about it, and there are means for 
countering that.
    And you can read about it in some of my papers. A lot of 
these things have been worked out long ago when the Strategic 
Defense Initiative was first proposed and the problem was to 
discriminate against the lasers, space-based lasers, which of 
course themselves are vulnerable. But even if they were 
invulnerable they could be defeated in this way, by having a 
very large number of decoys for the fleeting threat of 
ballistic missiles.
    Satellites can't have decoys, because they must do their 
job. They are up there for a very long time. So that is another 
reason why it is a lot easier to do the anti-satellite 
demonstration than it is to do a demonstration against a 
properly configured ballistic missile threat.
    Mr. Tierney. Thank you.
    Just another aspect of that. It would seem to me that there 
are a lot of moving parts of this. We had some testimony a 
couple weeks ago on how complex this is. So as to each 
component of this, you know, whether it is the kill vehicle or 
some other component, how many times should that be tested? Not 
in a simulation, because I think that is one part of it, but it 
doesn't tell us how it really works or whatever. How many times 
should each aspect of that be tested before we are comfortable 
that, if we really need it, it is going to work?
    Ms. Gronlund. It depends on how comfortable you want to be. 
And the more----
    Mr. Tierney. I want to be 100 percent comfortable.
    Ms. Gronlund. You can't. There is no way to be 100 percent 
comfortable.
    Mr. Tierney. OK.
    Ms. Gronlund. It is a little bit like flipping a coin and 
trying to determine whether or not the coin is loaded. So you 
flip it three times, and it comes up heads three times. Do you 
say, I am 100 percent confident that this is loaded heads? No. 
You know, there are odds of that happening.
    So you need to--I mean, if you look at how many tests the 
United States does of its missiles, nuclear armed missiles, to 
be sure that they are accurate, it is close to a hundred per 
missile. And a missile is simple. All it has to do is, you 
know, launch, separate the stages, and boom. It is nothing 
compared to a missile defense system where it has to react to 
data coming in. So I mean to really do an honest testing 
program, hundreds of tests, all the different conditions that 
could apply, different kinds of countermeasures, you know, 
different angles of attack, etc.
    Mr. Tierney. Nighttime?
    Ms. Gronlund. Yeah.
    Mr. Tierney. Angles of the sun?
    Ms. Gronlund. Exactly.
    Mr. Tierney. Shards?
    Ms. Gronlund. Yeah, right.
    But I want to return, if I may, to the issue of, I guess, 
really going back to sort of the fundamental issue of could 
we--could this work in principle, which is what we tried to 
address in this countermeasures assessment. So it basically--
all you need to know, what you need to know about a system is 
what sensors does it have? Because that is the only means that 
the system has to judge the difference between object A and 
object B and figure out if one of them is the warhead and the 
other one isn't.
    Mr. Tierney. And that is assuming everything else is 
working.
    Ms. Gronlund. Yes, absolutely. So this is the best-case 
analysis for the missile defense, which is exactly what we did 
there. It turns out that at that time the United States was 
planning to have a space-based infrared system as well, so 
there would have been more sensors.
    But it doesn't matter if in fact, as Dr. Garwin suggested, 
you have a lot of objects, that none of them look alike. They 
have different infrared signatures. They have different radar 
signatures. Namely, if a radar looks at them, they are all a 
little different. If an infrared looks at them, they are all at 
different temperature.
    It is a little bit--I am sure either Dr. Coyle or Dr. 
Garwin have used this analogy. It is a little bit like going to 
pick up your suitcase at the airport and, you know, there is 
yellow and there is red, and--actually, mainly there is black, 
but just assume--and you can sure as heck tell the difference 
between the red and the green one and the black one and the 
blue one. But you have no idea which one has the warhead. So 
you can discriminate, but it doesn't do you any good.
    So if you can do that analysis from the get-go, you know, 
you could basically now proceed. However, if they insist they 
can do it, then they should demonstrate it through testing. I 
mean, nothing can be so important that we are willing to field 
a system that we have no evidence works. I mean, nothing else 
that we field follows those rules.
    Mr. Tierney. So if I could ask all of you this, so if we 
had a system that we could test, how many tests would we run 
before we are satisfied we are ready to deploy this?
    Mr. Coyle. Well, when I was in the Pentagon, there were 25 
or 30 tests that were laid out that were going to have to be 
done. And, basically, those were designed around the idea that 
you would demonstrate at least once in one of those tests, not 
hundreds of times, but just once each of the critical issues 
that you were concerned about.
    Mr. Tierney. How many critical issues would you estimate 
there are?
    Mr. Coyle. Well, about the same number.
    Mr. Tierney. 25,000?
    Mr. Coyle. 25,000 or 30,000. For example--so that is why in 
my full statement I said, you know, we need to do a test at 
night. OK. Probably be nice if you could do several tests at 
night. But you would want to do at least one where you saw that 
the system could work at night.
    In the early tests that have been referred to already in 
this hearing, the early tests that were done in the program, 
the sun was basically shining over the shoulder of the 
interceptor, of the kill vehicle. And in my old age I am very 
much aware that I can read a newspaper a lot easier when the 
sun is shining over my shoulder, lighting up the target, the 
thing I am trying to read, than when the sun is in my eyes. So 
all of those early tests, some of which failed, some of which 
were successful, the sun was lighting up the target, so to 
speak, so that the interceptor could see it.
    Well, you would like to do a test at night where the sun 
wasn't there. How well do you read the newspaper at night? You 
would like to do a test where the sun is in your eyes. Can you 
read the newspaper when the sun is in your eyes? Well, when you 
go through and you make a list, it is not hard to come up with 
a couple dozen or more tests where, if you only did each thing 
once and showed that you at least were able to do it once, you 
wouldn't need that many tests.
    But the problem is they have to be successful. You can't 
just try it once. You have to succeed. So if you fail the first 
time or the second time, as has been the case in some of these 
instances, then you have to repeat them until you finally 
succeed.
    And looking at the last 5 years in particular, the success 
rate has been so poor, just two successes in the last 5 years, 
that if you had 20 or 30 tests to do at that rate where it took 
you 5 years to get two successes, it could take you 50 years 
before you could get through 20 or so tests. And I think by 
then the Congress probably would have lost patience.
    Mr. Tierney. I am not sure of that. If we lost patience, 
you would think we would have lost it a long time ago, given 
the track record of this thing.
    You know, I am sure that the Pentagon is going to come in 
here, the MDA is going to come in here and tell us, oh, we can 
discriminate now. I think--Mr. Kueter, I thought you said that 
at some point in time, you know, everything is going well. We 
really came a long way. We can discriminate it. Do any of the 
other witnesses believe that? Dr. Gronlund.
    Ms. Gronlund. No.
    Mr. Tierney. Dr. Garwin.
    Mr. Garwin. I think I pointed out in my testimony that they 
ought to refer to a technical paper, even a classified 
technical paper, with analyses signed by human beings so that 
you could subject it to the usual tests. And if we hear only 
that somebody says we can discriminate, well, it reminds me of 
the discussions that we had in the SDI era. I had many 
technical discussions with people like Greg Canavan, and it 
turns out that there are lots to be learned by such 
interchanges, not only by the people who are participating in 
the interchange but by onlookers who can then understand where 
the reality lays. So you learn a lot by doing that you miss by 
not having this technical interchange.
    Mr. Tierney. Mr. Coyle.
    Mr. Coyle. I agree completely. Part of the problem is that 
the Congress does not have the access to the information that 
would allow it to do, you know, a good job of oversight. If you 
don't have the information and the Pentagon just says trust me, 
you can't really do oversight.
    Mr. Tierney. I just note for the record that somebody--Mr. 
Coyle, I think you may recall. I don't know about Dr. Gronlund. 
You may, also. Earlier this decade, we had some hearings on 
this; and there were 50 different items that were not mature 
for this 2004 deployment. And when we had the hearings and we 
asked for a report from the Government Accountability Office, 
when the report was put on my desk, it was unclassified. I can 
tell you it is very unlikely it would have been unclassified if 
it was good news for the MDA on that. And we tried to get that 
declassified. We got somewhat of a declassified version, but 
they also went back and classified some matters supposedly 
retroactively on this. They have not been particularly 
transparent on this, have not been particularly forthcoming on 
what was going on.
    There was a mention made of a September test, a big deal on 
this. And I think it might have been General Obering and 
somebody at the MDA was running around Europe telling everybody 
about the September test. Are you all familiar with----
    Mr. Coyle. I think a recent test.
    Mr. Tierney. Recent test.
    Mr. Coyle. Yes, there was a test on September 28, 2007 
which was successful. It was a successful flight intercept test 
that hit the target. But it didn't have any decoys or 
countermeasures on it.
    Mr. Tierney. Similar to hitting the satellite.
    Mr. Coyle. The satellite, also.
    Mr. Tierney. Were those similar or were they totally 
different?
    Mr. Coyle. Totally separate. This was not the satellite 
test. This was a flight intercept test of the GMD program, 1 of 
the 13 they have done so far.
    Mr. Tierney. That is the one where they are seven and six? 
Thirteen tests?
    Mr. Coyle. No, it just happens to be the most recent. The 
one that was on September 28, 2007, is the most recent GMD 
flight intercept test. There hasn't been one since then.
    Mr. Tierney. How many have been there total?
    Mr. Coyle. There have been 13 altogether.
    Mr. Tierney. What is the record?
    Mr. Coyle. Seven of those were successful; six were 
unsuccessful. So that is a little better than 50 percent. But 
in the last 5 years the success rate has only been 40 percent. 
They have had two successes with five tries in the last 5 
years.
    Mr. Tierney. One of which was in September?
    Mr. Coyle. Including the one September 28th of last year, 
which was a successful test, but it didn't include any decoys 
and countermeasures. So it was actually a simpler test, an 
easier test for it to be successful from a target 
discrimination point of view, because it didn't have even 
simple balloons on it, as some of the very early tests did.
    Mr. Tierney. Well, with a record of seven successes and six 
failures on that aspect of this system, does it give you great 
confidence, Dr. Gronlund?
    Ms. Gronlund. No, it gives you no confidence. And I do want 
to point out that these tests are developmental in nature. They 
are not operational.
    Mr. Tierney. Can you describe the difference for us?
    Ms. Gronlund. Yes. Meaning that they are still trying to 
work out the basic technology. This is part of a, basically, a 
research program. These are not realistic situations where the 
crew has no warning, where everything proceeds as it would if 
there were an actual attack.
    As far as we can tell, and I think Dr. Coyle discusses this 
in his testimony, in the real world the interceptor would have 
to change its course as it got information from the radars 
while it was flying. And we don't believe that has happened 
yet, that it is told where to go. So that is what I mean.
    And that is perfectly fine if you are developing something 
new. If you are developing a new car, you don't take it out on 
the freeway. But if you are trying to figure out if it is going 
to work at high speeds, you don't take it out on the freeway 
either, but you do test it. And so there were not anywhere 
close to that kind of operational testing.
    Mr. Tierney. And notwithstanding that we are building these 
things like they are going out of style here.
    Ms. Gronlund. Exactly. And that's--you know, the fly 
before-you-buy legislation was designed to explicitly avoid 
this kind of situation where you end up with junk.
    Mr. Tierney. Dr. Coyle, wasn't that your job at some point 
in time, to make sure we didn't fly before we buy?
    Mr. Coyle. Yes, sir.
    Mr. Tierney. And at one point in time did this program come 
under that legislation?
    Mr. Coyle. It did. The early tests that we have been 
referring to, some of those were on my watch.
    Mr. Tierney. And at some point Congress in its wisdom 
allowed this program to escape that statute? Is that accurate?
    Mr. Coyle. I think you could say that, you know, from a 
historical point of view a couple of things changed this. The 
first was the Rumsfeld report, which I think was 1998, if my 
memory serves me, which talked about the threat, you know, 
which emphasized the threat requiring missile defenses. And 
then the law that Mr. Shays referred to earlier that said--
where the Congress said you must deploy these things as soon as 
it is feasible. That 1999 law I think also changed the 
situation, because now the Pentagon was under pressure to 
deploy hardware, not to show that it was effective.
    Mr. Tierney. You know what I want to go back to, because I 
made a note when Mr. Shays was making that reference. He said 
the 1999 policy voted that we would deploy an effective system. 
Anybody here believe the system is effective? Other than Mr. 
Kueter. I assume you do? Any other scientist on the board think 
it is effective?
    Mr. Garwin. I want to comment on that. Because the 
requirement--and I think Mr. Shays understands that--is to 
deploy an effective system.
    Mr. Tierney. Capable of defending us.
    Mr. Garwin. Yes, capable of defending the United States 
against missile attack.
    Now I was a member of the Rumsfeld Commission to evaluate 
the ballistic missile threat to the United States; and on page 
51 of this Countermeasures volume we quote. We say, Rumsfeld 
Commission report stated, ``all of the nations whose programs 
we examined that are developing long-range ballistic missiles 
have the option to arm these, as well as their shorter-range 
systems, with biological or chemical weapons. These weapons can 
take the form of bomblets as well as a single large warhead.''
    So to the extent that you believe that there is a threat 
from people who might use bioweapons, we are not deploying a 
system that has any capability against bioweapon-armed ICBMs 
and certainly no capability against nuclear or bioweapon-armed 
shorter-range missiles which could attack U.S. cities from 
ships. So we do not have an effective missile defense.
    Mr. Tierney. Do any of the other--and I know we have been 
talking exclusively about the mid-range here, but do any of the 
other aspects of this overall program, would they address the 
problem? You are talking about ships offshore sending in bio or 
nuclear.
    Mr. Garwin. No, we have no program in MDA to address that. 
Sometimes people admit we have no program and we have to get at 
that after we do the ICBM defense. But that is the problem. We 
spend so much money on the ICBM defense, which is doomed to 
failure, that things that might succeed, like boost phase 
intercept of inter-continental ballistic missiles or a 
perimeter defense against cruise missiles, gets short shrift. 
They are not discussed at all.
    Mr. Tierney. You want to say something, Mr. Kueter?
    Mr. Kueter. Yes, I want to completely agree with Dr. 
Garwin's assessment of the need for boost-phase defense as well 
as investments in cruise defense. Those are critical priorities 
that I would commend to your attention.
    I would remind you that the Congress did appropriate a 
small amount of money to begin work on cruise missile defense 
last year, and that would be something to continue to 
scrutinize as we go forward.
    Mr. Tierney. I intend to. I intend to.
    Let me just turn to a comment--I don't want to keep you 
folks here all night, but there was a lot to digest here.
    Folks from the Czech Republic came here recently, the 
chairman of their Foreign Affairs Committee and a number of 
other members of their House of Deputies on that; and they 
didn't seem to be considering whether or not the system worked. 
In fact, several of them told me it was irrelevant to them 
whether or not the system worked for their considerations as to 
whether or not they wanted to host the radar. But I don't think 
that they considered, from the reactions when we talked about 
it, the fact that maybe somebody would try to take out that 
radar. Maybe they might become a target.
    And I haven't talked to the folks from Poland on that, but, 
Dr. Coyle, you bring that up in your report. I mean, one sure 
way to sort of defeat this whole program, whether or not it 
will work, would be to go at that, right, to go at some of the 
so-called eyes of the system.
    Mr. Coyle. Exactly. Just basic military strategy. If Iran, 
say, was crazy enough to attack Europe, first thing they would 
attack would be the eyes of the system, that proposed radar 
that is to be located south of Prague. And so it would be the 
first target. And I think people in the Czech Republic are 
coming to realize that they would be the first target.
    Now, the Czechs have shown themselves to be brave and 
courageous people throughout history, and perhaps they might be 
willing to take that risk if the system works. But if the 
system is not effective, it is not fair to ask them to take 
that kind of risk.
    Mr. Tierney. I am looking at some of the testimony here. We 
went back to the Clinton administration era.
    The first test with a tumbling enemy reentry vehicle was 
planned to have been in early 2001, but it hasn't happened yet. 
That is a slip of at least 7 years.
    The first nighttime test was to have been December 11, 
2002. It hasn't happened yet either. That is at least 6 years.
    The first test with decoy balloons that will closely 
resemble the target reentry vehicle was to have been summer of 
2002. It doesn't seem that will happen anytime soon.
    March 2002, the MDA told Congress that the first GMD test 
with multiple targets, that is with several mock enemy missiles 
launched at once, could take place as early as 2005. That 
hasn't happened yet.
    The MDA has never had a successful flight intercept test 
where the target is launched from Kodiak and the interceptor 
from Kwajalein, that is, a long-range flight intercept test 
more closely resembling a real ICBM trajectory. In the past 
flight intercept tests, with the interceptor based in 
Kwajalein, the MDA has waited until the mock enemy target 
launched from Vandenberg, nearly reached Kwajalein before 
attempting a intercept.
    I mean, this seems like there is a lot of testing to be 
done. If they have been slipping 6 or 7 years in all of these, 
there didn't seem to be any indication that these were planned 
to be tested in the near future. So I guess we are looking at a 
long time before these tests, and you always continue to bring 
back to me the wisdom of why we continue to spend money on 
deployment when these haven't been tested.
    And for the record, so that other Members hopefully might 
read this at some point, there were at least seven reports that 
were done in the last couple of years by the Inspector General 
for the Pentagon, by the Director of Operations Technology--and 
Doctor, you get the last word for me there on that--evaluation 
by the GAO, by the OBM on that; and all of them suggested that 
this program had serious, serious issues and problems.
    The CBO made the recommendation that we reduce the annual 
amount that we spend on this program from the somewhere around 
$8 to $9 billion where it was at that point in time down to a 
number of around $3 billion and force them to get the testing 
right, a realistic and operational testing before we move to 
the next stage on all these items on that.
    Does that not make sense to people here? I mean, it seems 
that spiral development, if anybody can explain it--I have 
never really heard anybody explain it really cogently, but why 
on this program that costs so much would we be taking this 
concept of building these things out there? I mean, we have 
seen in the reports horror stories of parts for the silos that 
were supposed to hold the missile up didn't work. They keep 
building them at great numbers a month at huge expense. So it 
is not serving the purpose of somebody stopping something bad 
from happening and checking it.
    What rationale, if any, is there to continue this program 
on the basis that it is going, as opposed to reining it in, 
putting it back under the statute, where they have to prove an 
element of it is operational and under realistic testing before 
we move to the next part, before we move to integration, before 
we start deploying? Doctor?
    Ms. Gronlund. I think the only conceivable rationale is if 
you don't care if it works and you are assuming it will have a 
deterrent value. I think somebody here mentioned that today.
    And the question is, why would this have more of a 
deterrent value than the U.S. nuclear arsenal? But there was a 
report several years ago, I believe General Welch was an 
author, where the recommendation was actually to reduce the 
number of tests. Because the more the tests failed the less the 
deterrent would be worth. So I do think that, you know, there 
is a way in which certain parts of the government do not care 
if it works, that this is part of another kind of scheme they 
have.
    Mr. Tierney. I have the disturbing news--I want to hear 
what you have to say, Dr. Garwin. I do have a vote that I have 
to go make at this point in time. I don't know what the 
tolerance level of the witnesses is here. Some of you have come 
a distance or whatever. I would love to come back and continue 
this, but I don't want to force anybody to stay too long after 
hours.
    And so, quickly, what is the consensus here? If I came back 
in 15 or 20 minutes, would that be a terrible thing or would 
people have to go?
    Ms. Gronlund. No, that would be fine.
    Mr. Tierney. Dr. Garwin.
    Mr. Garwin. Fine.
    Mr. Tierney. Mr. Kueter.
    Mr. Kueter. Fine.
    Mr. Tierney. Fine. Then we will recess for about 20 minutes 
or so, and then we will be back. Thank you.
    [Recess.]
    Mr. Tierney. Thank you all for your patience with the 
continuing saga of votes and no votes. We will get back to the 
hearing.
    Dr. Garwin, you were about to make a response when I 
interrupted you.
    Mr. Garwin. I don't remember the subject.
    Mr. Tierney. I am sorry?
    Mr. Garwin. I don't remember the subject.
    Mr. Shays. You have to remember the subject. Just the 
question you are allowed to forget.
    Mr. Tierney. I think it was something Dr. Gronlund said 
that might have keyed you on to another point on that. We were 
talking about the number of different tests that were being run 
and how long a delay this had been and what likelihood we had 
that this was going to be done any time soon.
    Mr. Garwin. Well, a sensible program has a research phase, 
a development phase where you decide what is reasonably 
possible to achieve, and you build the sensors to do that, a 
ground test so that you can present the sensors with simulated 
objects to see that it works. If it doesn't work, if you don't 
understand the sensors, if it doesn't get to low enough 
temperature, then you find out there.
    And then, ultimately, when everything seems to work and 
when it faces all the challenges that you can pose it and there 
aren't any uncertainties anymore, then you go to flight tests 
and see whether it works in fact as it works in theory. And 
that is not what is done here. That is what we should have been 
doing, what you would do, paradoxically, in making progress 
faster at a $3-billion-a-year annual funding than at a $10-
billion-a-year annual funding.
    At this $10-billion-a-year funding, you are spending all 
your money on building radars, deploying interceptors, and not 
facing the problems. You postpone the problems because they are 
too hard. They take a long time. And in between, in the 
meantime, you have this enormous funding stream that doesn't 
buy us anything. So there are two kinds of uncertainties at 
that point.
    Once you deploy--once you test an interceptor, an in-flight 
test against realistic countermeasures and you believe that it 
works, or without countermeasures, then there is a question of 
reliability of the interceptor. Is it 70 percent reliable? A 
stochastic, a random failure. Is it 50 percent reliable? 30 
percent reliable? And that is important to tell you whether you 
need to fire two interceptors at each missile, three 
interceptors, five interceptors.
    And in the Clinton administration there were such 
discussions. It was imagined, as I recall, that one would fire 
about four interceptors at each threatening missile simply 
because of unreliability, not because they were inherently 
incapable but because their reliability was not proved. So that 
is the normal development program, and part of the program is 
to demonstrate that it will handle the expected decoys.
    MDA has never faced the question of whether it agrees with 
the proposed decoys that the 1999 NIE says are feasible and 
that could accompany even the first flight test, if they wanted 
to, the nascent ICBM power. But, beyond that, there are the 
tests that Dr. Coyle refers to, adverse conditions to 
demonstrate that they work there. You could have several 
adverse conditions at once, reducing the number of flight 
tests, and then the questions of reliability.
    So on the interceptors, random failures can be accommodated 
by launching several interceptors instead of just one. 
Communications failures can be accommodated by thoroughly 
testing the system all the time, having multiple communication 
paths. Computer failures, software failures, well, they may not 
be testable. You could do it by intensive simulation, but it is 
something that needs to be overseen by technically competent 
people, red-teaming people who are not part of the program but 
who propose the challenges and review the results.
    Mr. Tierney. OK. Mr. Shays, do you want to be recognized to 
ask a few questions?
    Mr. Shays. Thank you.
    I would like each of you to describe to me your general 
attitude about the missile defense program when it started and 
your attitude now about it. Just a framework that would 
describe do you feel like you have already determined your 
position on this? Are you open-minded about it? And so on.
    But tell me your view when this program began. Did you 
think it would work and now think it has failed? That is my 
first question. Or did you never think it would work and still 
think it won't work? Or you thought it would work and now you 
think--in the past and you think it will now.
    I would like each of you to do that.
    Ms. Gronlund. When you ask about the system, are you 
referring to the ground-based missile defense system?
    Mr. Shays. Yes.
    Ms. Gronlund. The one that was begun under the Clinton 
administration?
    Mr. Shays. Uh-huh.
    Ms. Gronlund. Early on in--let me use his prop here--when 
that system was under consideration, I participated in a group 
of people who studied the issue of countermeasures along----
    Mr. Shays. I don't need to know all the things you did or 
didn't do. I just need to know your attitude. I need to know--
it is a simple question, really.
    Ms. Gronlund. Right.
    Mr. Shays. Did you think when we began it that it would 
fail? Or you thought it might succeed? Or you had an open mind? 
You already decided it wouldn't work?
    Ms. Gronlund. Right. Well, that was--so this exercise is 
what convinced me that the system could be easily defeated by 
simple countermeasures. At that point, based on physics, I 
thought it would not work. But I think, you know, people will 
disagree with that, and the proof is in the pudding. So it 
needs to be tested thoroughly against realistic threats, and 
that has not happened. So I have no evidence to change my 
opinion, based on analysis.
    Mr. Shays. Basically, your opinion is, because of 
countermeasures, whatever we did, you think that the system 
won't work. And so not a wise expenditure of dollars.
    Ms. Gronlund. Right. That the mid-course--the system 
designed to shoot down long-range missiles in mid-course will 
not be effective, and hence it is.
    Mr. Shays. Because of countermeasures.
    Ms. Gronlund. Because of countermeasures.
    Mr. Shays. And you believe to date there is nothing that 
has told you that you are wrong because you don't think the 
proper tests have occurred.
    Ms. Gronlund. Thank you.
    Mr. Shays. OK. Thank you. I appreciate it.
    Mr. Garwin.
    Mr. Garwin. I have reviewed for the government every 
ballistic missile defense program since 1953. And so in the SDI 
days we had mostly space-based defenses. They wouldn't work 
because they were so costly and vulnerable. Even the space-
based small interceptors were too vulnerable. They would be 
shot down as they were being sent up. We retreated to the 
interceptors that were ground-based. It was obvious that they 
would have the problem of decoys and countermeasures. So I 
never doubted, never expressed any doubt that we would achieve 
hit-to-kill capability against defined targets. And we did. So 
that is fine.
    My concern was always with the countermeasures. In 1999, I 
published a proposal for a cooperative boost-phase intercept, 
especially against North Korean missiles; and I still believe 
that is a reasonable approach.
    Mr. Shays. But let me just ask you about this, though. So 
bottom line is you had real doubts whether the 
countermeasures--you had doubts whether we could ever develop a 
system that could confront countermeasures. And so--and to date 
you have seen nothing that indicates that it can respond to 
countermeasures. Is that correct?
    Mr. Garwin. That is exactly right. And there are some 
things that could be done----
    Mr. Shays. No, but I don't want to go there. I just want--
we have limited time. And then but you, unlike some, believe 
that it is possible for a bullet, in a sense, to hit a bullet 
as long as there aren't countermeasures.
    Mr. Garwin. Yes, I believe we can hit the warhead-sized 
bullets with interceptor-size bullets.
    Mr. Shays. The reason I ask that is some opponents say we 
couldn't do that. So when they were wrong about that, then they 
candidly lose credibility. I don't mean credibility, but then 
their argument seems to me to be flawed.
    You wanted to grab the phone, Ms. Gronlund. Why?
    Ms. Gronlund. Well, because I also think hit-to-kill--I 
mean, we have seen it demonstrated.
    Mr. Shays. OK. Did you ever believe before, that wouldn't 
even work?
    Ms. Gronlund. No. In fact, it has been demonstrated a long 
time ago.
    Mr. Shays. OK. Well, but with all due respect, we have had 
hearings where people said that is impossible, it won't happen. 
We have had hearings in this committee where people have said 
it. I am not saying you.
    Ms. Gronlund. Right, no.
    Mr. Shays. So people with tremendous stature say you can't 
do that--and a lot of Members of Congress.
    Mr. Kueter.
    Mr. Kueter. At the Marshall Institute, we had real doubts 
about the ability to effectively conduct mid-course defense 
when this program was started as the center of emphasis in our 
missile defense programs in the 1990's. Since, we have become 
quite convinced that the progress is immensely positive, and we 
are enthusiastic that we are providing the Nation with an 
incremental defensive capability.
    Mr. Shays. So you started having some doubts and have been 
kind of drawn into this feeling that the system has the 
potential to work with further research?
    Mr. Kueter. Absolutely.
    Mr. Shays. OK. Mr. Coyle.
    Mr. Coyle. Mr. Shays, I support research and development in 
missile defense. I have worked on missile defense programs 
myself not only when I was at the Pentagon but before that, 
when I was at Lawrence Livermore National Laboratory. So I 
support R&D on missile defense. It is expensive, but I think 
the United States can afford it.
    What I don't support is deploying systems that are not 
effective and telling the American people or people in Europe 
or Members of the Congress that the systems are effective when 
they are not. My issue is particularly that we are spending so 
much money on hardware right now whose effectiveness has not 
been demonstrated.
    Mr. Shays. OK. So your basic view is a system can work, 
but, like Congress, don't deploy until it works. That is the 
position of Congress.
    Mr. Coyle. Well, when you say a system can work, then you 
have to say, well, which system are we talking about? And if we 
are talking about----
    Mr. Shays. No, you said a system can work, not me.
    Mr. Coyle. I am sorry.
    Mr. Shays. You said that a system could work, that you 
believe that a system can work. You believe in missile defense, 
and that a system can work. I thought that's what you said.
    Mr. Coyle. I don't believe it is. But if it is I----
    Mr. Shays. Well, then start all over again. Let's start all 
over again. What is your attitude about a missile defense 
system?
    Mr. Coyle. What I was trying to say, and I hope I did, was 
that I support research and development on missile defense, 
have done----
    Mr. Shays. Despite the fact that you don't think it can 
work?
    Mr. Coyle. No. Because I think it is important to know what 
you can do and what you can't do. It is important not to be 
surprised by your adversary.
    Mr. Shays. Let me ask you, if you don't think it can work, 
why should we do it?
    Mr. Coyle. Well, I didn't say that I thought it could work 
and I didn't say I didn't think it could ever work. Because you 
and I never defined what the ``it'' was. Are we talking about 
the GMD system? Are we talking about defense against ICBMs? Or 
are we talking about PATRIOT? They are very different systems.
    Mr. Shays. Let's take all three.
    Mr. Coyle. So, I think that missile defense against ICBMs 
in the presence of more than one missile attacking and where 
those many missiles are using decoys and countermeasures is 
very tough. As I said earlier in this hearing, it is hard to 
get a scientist to say that anything is impossible, but I think 
missile defense against ICBMs, where you are talking about many 
ICBMs and those ICBMs can use decoys and countermeasures, is 
very tough. And so I would be most skeptical about that.
    You will recall that----
    Mr. Shays. Go to the next one. You have three in that 
regard. So you have told me your opinion about that. And so, in 
the other two cases?
    Mr. Coyle. Well, the next one, I would say the next 
toughest is the THAAD program, Terminal High Altitude, whatever 
the letters stand for these days. They have changed it.
    Mr. Shays. It is Terminal High Altitude Area Defense.
    Mr. Coyle. Yes. Thank you. That is the next toughest 
program I would say after the GMD program. The next toughest 
after that, getting easier, so to speak, is the Aegis system. 
And then finally the PATRIOT system, which is the shortest 
ranged of the systems.
    Mr. Shays. But you think the PATRIOT would be the easiest?
    Mr. Coyle. Well, everything is relative here. The PATRIOT 
itself has had many problems. It missed some of the missiles--
--
    Mr. Shays. But that is not what I asked. But you gave, that 
is the one that is the easiest of the ones you mentioned?
    Mr. Coyle. Relatively speaking, yes.
    Mr. Shays. OK. Is there value to having a missile defense 
system for an errant missile, a missile that was launched not 
intended to--where just they went too far and it ended up being 
launched but there is no decoy. Is there value in having a 
system--I would like each of you to respond--a missile defense 
system in those cases?
    I mean, in the case of Iran, you know, the Jewish community 
has this saying, that if your enemy says he is going to kill 
you, you had better pay attention. And there is no doubt what 
the present regime in Iran has said. So the question I am 
asking is, first, if a system--if a country like Iran develops 
a missile system and there is an errant missile, would there be 
value in spending the incredible sums of money for a missile 
defense program; or would it be better just not to? If you 
could get that kind of system. Because basically you are all--
you feel a bullet can hit a bullet, but you feel that if they 
have decoys, you are going to have problems.
    Mr. Garwin. I don't think it would be worthwhile. You are 
making a missile; it is equipped with decoys in order to 
penetrate. It would be automatic if that missile were launched 
that it would deploy its decoys. So it would not be 
intercepted, in my opinion, by the system.
    I think while you were away I made the point that if MDA, 
Missile Defense Agency, would admit that their present system 
does not work, would not work against first generation ICBMs 
with decoys, then they could get to work on making it work. 
There are things that they could do that would make it work, 
but they are not going to do them unless they face the fact 
that it won't work.
    Mr. Shays. You and I do agree on one thing, and that is 
whatever we have we shouldn't deploy it until it works.
    Mr. Garwin. That is right. And we have deployed and it 
doesn't work.
    Mr. Shays. So there we may agree, where we have deployed 
and it doesn't work.
    Let me just conclude here. So the bottom line with the 
Missile Defense Agency, when they have printed a document that 
says, with the Ground-based Midcourse Defense [GMDs], we have 
had 6 hits and 1 miss, and the Aegis ballistic missile defense 
13 hits and 1 miss, and the Terminal High Altitude Area Defense 
[THAAD], 4 hits, no misses, and the PATRIOT Advanced 
Capability-3, 11 hits and 3 misses. Your point would be to me 
that is impressive to the extent they have done that, but none 
of this involved the decoys. Is that your position, all of you?
    Mr. Garwin. That is correct. And decoys are difficult with 
the terminal systems. So those are in fact quite credible, in 
my opinion, in many cases. Decoys are difficult for the offense 
to deploy in connection with penetrating the terminal systems.
    Mr. Shays. Let me just hear from the others, and then I am 
sure my chairman wants to ask some questions as well. Any other 
comment on that issue? Yes, Mr. Coyle.
    Mr. Coyle. Well, I don't think the numbers are correct, to 
start with.
    Mr. Shays. Let me just say, this comes from them. And I am 
going to submit it for the record, without objection. And if 
these are not accurate, they are in deep trouble with me, 
because this is their document. So if I could submit that for 
the record.
    Mr. Tierney. Without objection.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. And also, let me just say, there was the article 
that you made reference to that we had asked them to respond 
to, and if I could submit that, without objection.
    Mr. Tierney. I would like to review it first for my own 
information.
    Mr. Shays. Certainly. I am not making reference now, but 
they made responses. And since I wasn't here----
    Mr. Tierney. Sure. Just leave it open so I can take a look 
at it.
    Mr. Shays. Absolutely.
    Mr. Kueter, any response?
    Mr. Kueter. It is undoubtedly true that the Midcourse 
Defense Program has not had an active flight test against 
countermeasures in quite some time. As I tried to explain, 
there were reasons for the delay in the test program that were 
wholly unrelated to the actual operation of detecting and 
destroying an RV in space. It had to do with booster failures, 
it had to do with quality control problems. That created 
enormous delays in this program, which they have now come 
through and successfully shown they have come through in the 
September flight test of last year that we have previously 
discussed.
    Their plan calls for tests against countermeasures in 2008. 
I think that when you hear the results of that test we will 
know a great deal more about this conversation than today.
    I have also tried to reference the fact that they have been 
actively simulating lots of these countermeasures in their 
advanced computing facilities and what not. I think there is a 
lot to be learned from that conversation as well.
    Mr. Shays. Let me just conclude by making this point; that 
the reason I asked the question is I was extraordinarily 
skeptical of the Missile Defense Program. Then I concluded--and 
it would have not been something I advocated. So if I had been 
President of the United States, I wouldn't have been pushing 
the program. Then I found myself listening to the rhetoric of 
so many who said, well, you couldn't possibly do this, this, 
and this, and mostly the bullet-to-the-bullet. And it appears 
they are.
    So it may be that they set up a straw man, I mean the 
critics, and now I have become a believer. And so your 
testimony--some of your testimony to me here is don't be 
impressed with it because countermeasures could mean that even 
if you can hit a bullet on a bullet their countermeasures will 
prevent that. That is the testimony I am hearing, and I will 
obviously take that in consideration.
    My general view is the program should continue. Research 
should continue. But we sure as heck shouldn't deploy it until 
we know it works.
    Thank you.
    Mr. Tierney. That was my motion 2 years ago as well as I 
think every year after that, is just reduce the budget to $3 
billion for testing and developing. And I think that got 138 
votes. But it seems like common sense.
    I just want to clarify a couple things. This report is now 
part of the record, BMDS Hit-to-Kill Testing History Since 
2001, indicates that there were six hits on this, six hits 
since 2001. That was not the testimony that we had been hearing 
earlier, so I just want to clarify that. This is the Ground-
based Midcourse Defense, Defense Against Long-Range Threats, 
says there hits six hits and one miss since 2001. That is not 
at all the testimony that we received earlier, so I would like 
somebody to comment on that.
    Apparently when no interceptor gets launched, they don't 
call that a hit or a miss, and I am sure that helps the numbers 
a little bit.
    Mr. Shays. But if I might. If it hasn't been launched, it 
doesn't have a target to hit.
    Mr. Garwin. It is like the excuse that the dog ate my 
homework. So it depends how you count.
    Mr. Tierney. If I can finish my question on that. Part of 
the system is that it gets shot out and actually goes 
someplace. If it doesn't get up and going, you missed. It just 
seems kind of ridiculous to say, oh, if it fails at the very 
beginning of the test, that is not considered a failure. But if 
it fails somewhere after that, it is a failure. It either got 
up and it worked, or it didn't get up and didn't work. So the 
six to one number, again, if I could, it doesn't comport with 
the numbers we heard in testimony earlier.
    Dr. Coyle.
    Mr. Coyle. Well, it is correct, as this chart shows, that 
there have been 10 flight intercept tests in the GMD program. 
That is correct. I didn't bring the numbers for the other 
programs. I would be happy to look at those.
    But to say that they are not going to count it when the 
interceptor never gets off the ground, I mean, in battle if the 
interceptor never gets off the ground, that is a failure. To 
say they are not going to count it because the target, which is 
the third column----
    Mr. Shays. Can I just want to correct one thing? Because I 
don't want to distort what they said. I read two hits, one 
miss.
    Mr. Tierney. Six hits.
    Mr. Shays. Six hits or one miss. I should have read the 
other two, because they are saying no intercept to launch. They 
didn't say that is a success.
    Mr. Tierney. No. But they didn't say it is a miss either. 
And that is my point. My point is, two failures to launch 
brings the missed number to three. So it means you get six out 
of nine, and a no test target failure, I don't know how you 
count that, win, lose, or draw, or something on that basis. So 
that was one part of it. The other part was that--and the 
testimony was that because they were hitting something in some 
cases where they were predisposed to know information that they 
otherwise wouldn't know. Am I correct on that? Dr. Gronlund.
    Ms. Gronlund. Yes, you are. I think maybe a more 
fundamental problem with this----
    Mr. Tierney. Let's first do that before I forget, and then 
you can go to the more fundamental problems. Was it your 
testimony or Mr. Coyle's testimony or Mr. Garwin's testimony 
that said that in some of these cases they were given 
assumptions to work by that nobody would ever know in a 
realistic test.
    Ms. Gronlund. Correct.
    Mr. Tierney. Would you explain that a little bit? And then 
we will go on to your more fundamental issue.
    Ms. Gronlund. They were told where the target--the 
trajectory of the target in some cases early on. They were told 
the point in space to go to. It wasn't really hitting the 
target; it was both the target and the interceptor going to the 
same place and then finding each other.
    Mr. Tierney. So the deck was stacked?
    Ms. Gronlund. The deck was stacked. Which, again, is 
totally appropriate for a research and development program. But 
you don't deploy on the basis of that.
    Mr. Tierney. But it is certainly not considered an 
operational realistic test.
    Ms. Gronlund. No, no, no.
    Mr. Tierney. So would any of the six tests that were 
successful be considered an operational and realistic test?
    Ms. Gronlund. No.
    Mr. Tierney. Mr. Kueter.
    Mr. Kueter. As I tried to describe both in my oral 
testimony and in the written statement, the September 2007 test 
had any number of operationally realistic characteristics to 
it. The other point----
    Mr. Tierney. That is one. What about the other five?
    Mr. Kueter. Pardon?
    Mr. Tierney. That is one test. What about the other five?
    Mr. Kueter. Well, in the other five you are back in the 
2003, 2004 time period, where you are doing proof of concept on 
whether you can do hit-to-kill, where you are working out the 
capabilities of the sensors that you are building and using for 
the first time. I think at that point in the development of the 
program it is perfectly realistic and reasonable for it to have 
certain artificialities on it. That is no longer the case. They 
are clearly moving in that direction.
    Mr. Tierney. Except that I don't think you are going to 
tell us that the September test was purely under all 
operational realistic conditions.
    Mr. Kueter. Well, you had----
    Mr. Tierney. No. Under all. Where there was nothing about 
it that wasn't realistic and operational. Is that your 
testimony?
    Mr. Kueter. Well, no test is completely realistic. It is a 
test after all. There are certain artificialities involved.
    Mr. Tierney. I just want that understood. It is not like it 
was operationally and realistically tested and ready to roll. 
It was tested with some assumptions. There were predispositions 
and other things in mind.
    Mr. Kueter. Certainly. And it is run against the standards 
that Dr. McQueary and the Office of the OT&E has established 
for the MDA to operate under.
    Mr. Tierney. I guess the edge you hear in my voice is, I 
have been following this for 12 years and lots of times the 
standards they set ain't so good. They set the standards so 
that they can meet them as opposed to what they might 
realistically expect.
    Mr. Kueter. No. I said it is Dr. McQueary's standards.
    Mr. Tierney. Whatever. Dr. McQueary or somebody else's 
standards.
    Mr. Shays. First, let me say something. I have no dog in 
this fight. In other words, maybe I am neither an advocate or 
an opponent, and maybe I should be one or the other but I am 
not. But according to the Missile Defense Agency, they said: 
The critics say we are not testing under operationally 
realistic conditions. Response--this is their response. The MDA 
tests are consistent with operational realistic test criteria 
developed by the test community and the warfighter.
    The second point. The MDA flight tests increase in 
operational realism and complexity with each test, adding 
increasingly challenging test objectives.
    And then the last point. The last two tests, the FTG-02 and 
the FTG-03a, the long-range elements, the Ground-based 
Midcourse Defense, were operationally realistic.
    That is their claim. And I would like to submit this for 
the record, because they are going to appear before us.
    Mr. Tierney. And I think we can ask the witnesses on this 
point by point. And I have a dog in this fight, and it is that 
we not waste money building something and procuring stuff 
before they have been realistically and operationally tested to 
be effective and moving forward. And that is my dog in this, to 
the tune of billions and billions of dollars.
    Mr. Shays. And I am not being critical of your position.
    Mr. Tierney. No. I don't care if you are or not. But I am 
telling you, the hunt is we have spent $120 billion to $150 
billion so far; we are planning to spend another $65 billion. 
We haven't realistically tested these things. We are building 
and procuring before it gets to that point by all reasonable 
evidence here. And I think that Mr. Nunn was correct, this 
seems to be more theocracy than technology on this thing. 
Otherwise, I think people would back up to a realistic number, 
do the testing, and proceed on that basis.
    But the critics--amongst them me being one of them--say 
that we are not testing under operationally realistic 
conditions.
    Their response, Dr. Garwin. The first one is that MDA tests 
are consistent with operationally realistic test criteria 
developed by the test community and the warfighter. Is that so?
    Mr. Garwin. No. Operational realistic conditions means 
decoys, according to the 1999 NIE. And so long as they do not 
include the feasible decoys, it is not an operationally 
realistic test condition.
    Now, did I understand that they said the FTG-02 and -03 
were operationally realistic? Maybe. But the FTG-03, it says in 
this testing history, target failed to reach sufficient 
altitude. So it would have been realistic except it wasn't 
there. If that is what I understand.
    Mr. Tierney. Dr. Coyle, do you have anything to add with 
respect to the comment that MDA tests are consistent with 
operationally realistic test criteria developed by the test 
community and the warfighter?
    Mr. Coyle. Yes, sir. I don't deny that the tests have 
become more realistic from a command and control point of view, 
passing information back and forth. They have worked hard to 
make the tests more realistic from a command and control point 
of view. But from a discrimination point of view, no. The way 
operational tests are done, you ask DIA, the Defense 
Intelligence Agency, or one of the intelligence agencies to 
tell you what the threat is, and then you do the test against 
that threat. The program doesn't get to decide what that threat 
is, the testers don't get to decide what the threat is. The 
intelligence community defines the threat, and then that 
determines what sort of operational test would be done.
    So the answer is, no, they haven't done that.
    Mr. Tierney. What about the MDA saying that the MDA flight 
tests increase in operational realism and complexity with each 
test, adding increasingly challenging test objectives? Dr. 
Gronlund.
    Ms. Gronlund. Well, I think what Dr. Coyle said about 
command and control is correct. But from the very beginning, I 
guess this pre-dates 2001, when they were including decoys, 
certainly we have gone backward in terms of----
    Mr. Tierney. You might want to repeat that when he is 
paying attention.
    Ms. Gronlund. I am sorry?
    Mr. Tierney. You may want to hold off and repeat that when 
he is paying attention. This is for his benefit.
    Ms. Gronlund. I will hold.
    Mr. Garwin. Let me say something in the meantime.
    Mr. Tierney. Let's say it when Mr. Shays can hear it.
    Mr. Garwin. This is just for record. I think you mentioned 
FTG-03, and I said it didn't reach sufficient altitude. But Mr. 
Kueter reminds me that it was rerun. It was a rerun of that 
FTG-03a, and that in fact was a success. In September.
    Mr. Tierney. I am going to explain that a little bit more, 
so thank you on that.
    Dr. Gronlund, go ahead on yours. You were talking about the 
increasing----
    Ms. Gronlund. Right.
    Mr. Tierney. With respect to communications.
    Mr. Shays. Get that from the record what she was saying.
    Ms. Gronlund. I think we should do complete openness here. 
So you go ahead and put that in the record.
    What I was talking about is the decrease in realism vis-a-
vis countermeasures, that early on, pre-2001, there were some 
tests with decoys. Now, they weren't realistic decoys. But all 
of that has been dropped. And there were plans for more 
ambitious tests against countermeasures, which has also 
disappeared.
    So on that track, which is a really fundamental track, that 
is the reason we are very skeptical about this program. That 
realism has decreased.
    Mr. Tierney. Dr. Coyle, agree? Dr. Garwin. Are you 
disagreeing with it?
    Dr. Coyle. Yes. What is true in the statement that you read 
is that they have done some things to make the tests more 
realistic. As, for example, improving command and control 
systems. And I think the Navy and their Aegis system has done 
that the best. But in terms of other elements of the test that 
also need to be realistic. Those have fallen way behind.
    Mr. Tierney. Does anybody there know what the FTG-02 and 
FTG-03a test, the last two tests of the long-range elements 
were operationally realistic, what might they be talking about 
with that--the last two tests of the long-range elements were 
operationally realistic?
    Mr. Kueter. Sir, I believe they are referring to the radars 
that I mentioned, the X-band radars, the sea-based systems, the 
forward deployable systems, as well the other ground-based 
systems they may have in addition to the interceptor fields.
    Mr. Tierney. So they are talking about the whole system in 
this case?
    Mr. Kueter. What they would refer to as the integrated 
BMDS.
    Mr. Tierney. So those two tests supposedly test all the 
radar as well as that. What do we know about the FTG-02 and 
FTG-03a?
    Dr. Coyle.
    Mr. Coyle. Well, both of those tests involved a launch of a 
target from Kodiak with the interceptor launched from 
Vandenberg Air Force Base in California. Both times they were 
successful. What they did not do, however, whatever that 
statement is about radar elements, they did not in those tests 
use the Sea-Based X-band Radar. It was watching, it was 
looking, but it was not hooked up, so to speak, in a way such 
that it could tell the interceptor, no, dummy, you are going to 
the wrong thing. First of all, there wasn't anything else for 
the interceptor to look at. There was no decoy. But even if 
there had been, the radar was not hooked up to say to the 
interceptor, no, you are going to the wrong place. Don't go to 
that object, go to this one over here. They didn't do that in 
either one of those tests.
    Mr. Tierney. So what is operationally realistic about that?
    Mr. Coyle. Well, indeed, it is not. Because if the system 
is ever to work, the radar has to be able to tell the 
interceptor, I know you think you are pointed at the right 
target but you are not, you have to go over there. And they 
haven't demonstrated that they can do that.
    Mr. Tierney. Dr. Garwin, do you want to add anything to 
that?
    Mr. Garwin. No. I really have no information on it, except 
to note that the statement is probably true in some sense, that 
at least they had their radar watching as a bystander, and 
later on they will connect the radar in the loop. And that will 
be increasing realism. So I have no reason to doubt that in 
some sense what they say is true.
    Mr. Tierney. Well, except that the last two tests were not 
apparently operationally realistic.
    Mr. Garwin. That is why they say ``increasingly.''
    Mr. Tierney. No, they didn't say ``increasingly'' on this 
one. They made a flat-out statement: The last two tests of the 
long-range elements were operationally realistic, they say.
    Mr. Garwin. That is not true.
    Mr. Tierney. That is not true for the reasons that you 
stated. Now, somebody in their testimony, I can't remember 
quite who I read, talked about one of the radars being able to 
follow a baseball. Was that you, Dr. Coyle?
    Mr. Coyle. Yes.
    Mr. Tierney. That is not this piece, though?
    Mr. Coyle. I don't believe that is what you are talking 
about.
    Mr. Tierney. Would you tell us what it was in your 
testimony you were talking about?
    Mr. Coyle. Yes. The Missile Defense Agency has told 
Congress that if the Sea-Based X-band was in Chesapeake Bay and 
the baseball was over San Francisco, that the X-band radar 
could discriminate that, could see it and discriminate that. 
And what they don't say is that, for the radar to do that, it 
has to pulse again and again and again, keep taking pulses of 
that baseball. And after it has done that about 120 times, 
finally it gets the picture and it says, ah-hah, I can see you, 
I can see that round object.
    The problem is, if the baseball were moving like a real 
enemy warhead would be moving through space, if the baseball is 
moving now it is no longer in the field of view. During the 
time it would take to do those 120 pulses, the enemy reentry 
vehicle has moved so far that it is no longer in the field of 
view of radar.
    So I think what was misleading about that story--I mean, we 
all speak in analogies, but what was misleading about that 
story, which is often cited about how they can see a baseball 
across the country, is that they don't explain that if it 
were--if that baseball were moving as fast as a reentry vehicle 
would be moving, that indeed the radar couldn't do that.
    Mr. Tierney. Thank you. I was following in the Boston Globe 
two things. One is the paper editorialized on April 8th about 
the Bush-Putin summit. And apparently then Rick Lehner, the 
Director of Public Affairs for the Missile Defense Agency, took 
great issue because he thought, at least in his reading, that 
they took issue with the missile defense technology and he 
thought they asserted that it doesn't work. So he wrote a 
letter back to them saying that he really believes they just 
don't understand.
    And he says: The first successful intercept test from 1999 
to 2002 used the type of decoys we could expect from countries 
such as North Korea and Iran, and future tests will introduce 
more challenging decoys to keep up with expected threats.
    Is that true, that the first successful intercept test from 
1999 to 2002 used the type of decoys that could be expected 
from countries such as North Korea and Iran?
    Ms. Gronlund. No.
    Mr. Tierney. Why not?
    Ms. Gronlund. Because the decoys appeared very different 
from the warhead, and the system was also told what the warhead 
would look like. So they had very large balloons that had a 
very large infrared signature and a different radar signature 
from the warhead. I mean, the point of having a decoy is--yeah. 
OK.
    Mr. Tierney. I mean, it is this kind of statement that 
probably bothers Mr. Shays and I, is that we want to find out 
where the system is at and we want to find out whether it 
should be tested or whatever. Misstatements and exaggerations 
aren't helpful on that point. He goes on to say----
    Mr. Shays. Could I just jump in here?
    Mr. Tierney. Sure.
    Mr. Shays. The challenge, though, is that they are not 
here.
    Mr. Tierney. They will be.
    Mr. Shays. I know they will. But what my view is, it would 
be nice to have them here to counter any time--it would make 
the dialog more interesting, I think.
    Mr. Tierney. Well, they won't sit on the panel with other 
people, because it has been the policy of the Department that 
they sapiently don't like to be challenged on their dialog. But 
they will be on another panel, and then we will have people 
following that panel so we can get as best we can.
    Mr. Shays. Maybe we should ask them to stay to respond 
again. Anyway.
    Mr. Tierney. This Mr. Lehner, who is the Public Affairs 
Director for the MDA, then goes on to say: As for how realistic 
the missile tests are, I am not certain what the Boston Globe 
means. For tests of the long-range system, we launch a target 
missile from Kodiak, AK, and then intercept the missile from 
Vandenberg Air Force Base in California. The trajectory closely 
replicates a launch at the United States from North Korea. We 
used an operational radar at Beale Air Force Base in California 
and the operational command and control system staffed by 
military operators from U.S. Northern Command, the same people 
who man the consoles 24/7.
    Is that true, Dr. Coyle?
    Mr. Coyle. Well, when they say they used the radar, if that 
means it was turned on, yes, that is true. But they didn't use 
the radar to tell the interceptor: You have picked the wrong 
target, go here.
    First of all, they couldn't, because there wasn't a wrong 
target, there were no decoys on those tests. But if there had 
been, they didn't use the radar to say, no, go to this target 
instead of that one, you just picked the wrong one.
    The other problem is, when Colonel Lehner speaks about the 
tests that were done in the early years, I am familiar with 
those tests. And the balloons, as has already been explained, 
were much bigger and brighter than the reentry vehicle. So they 
didn't resemble the reentry vehicle. And so the analogy that I 
used in my formal testimony was, yes, they discriminated 
between an elephant and a man, two things that don't resemble 
each other. That is what was done in those early tests.
    The challenge of course is when the decoy actually 
resembles the reentry vehicle. Now you are trying to tell 
either two elephants or two men apart, and that is much 
tougher.
    Mr. Tierney. And from my memory from the testimony and 
reading the written testimony, whatever, the National 
Intelligence Estimates, and the intelligence community expects 
that a country able to make a missile would be able to make 
decoys or whatever with current technology. They can either buy 
it from Russia or China, or they can make it themselves. So you 
would expect that they would be doing something at least 
sophisticated enough to resemble the missile itself.
    Mr. Coyle. Yes, sir.
    Mr. Tierney. Dr. Garwin.
    Mr. Garwin. Mr. Chairman, you mentioned the analogy of a 
radar in Chesapeake Bay and a baseball-sized target at San 
Francisco. Well, the job would be a lot easier if they were 
baseballs rather than reentry vehicles. Because, in our 
countermeasures volume on page 133, we consider a realistic 
reentry vehicle, and we assumed that, as the intelligence 
community says in their 1999 NIE, that these states have the 
ability to orient the reentry vehicle. So if the nose is 
pointing toward the radar or anywhere near toward the radar, 
the cross-section, the signal that comes back is not that from 
a baseball but from a marble, about a half inch in diameter.
    So it can be very much reduced to be invisible to that 
radar. So that is really a misleading analogy.
    Mr. Tierney. Colonel Lehner also says: The trajectory 
closely replicates a launch on the United States from North 
Korea. And he talks about the test of the long-range system. 
They launched the target missile from Kodiak, AK and 
intercepted the missile in Vandenberg Air Force Base, 
California.
    Would that closely replicate a launch from North Korea, Dr. 
Coyle?
    Mr. Coyle. Well, it is better than some early tests that 
didn't. But what would really represent that would be a test 
where the target was launched from Kodiak and the interceptor 
was in Kwajalein, not in California. That kind of distance 
would represent an ICBM, and they have never had a successful 
test. They have tried twice, but have never had a successful 
test of that.
    Mr. Tierney. Mr. Shays, do you want to ask questions?
    Mr. Shays. I am going to be leaving, and I just want to 
make sure. Mr. Kueter, you were not invited to respond to some 
of these questions. Is there anything that you wanted to say 
before?
    Mr. Kueter. I would say that the description of the realism 
in these tests is one that you ought to explore in great detail 
with Dr. McQueary, who is the head of operational test and 
evaluation at the Defense Department, the person who is helping 
to design the criteria by which these tests are to be 
functioned. His statement, which I quoted from in my testimony 
to the Senate earlier this month, indicates tremendous progress 
in the realism of the testing program and the quality of the 
work that is being done. They are integrated in with the 
protocols that the Missile Defense Agency is being held to 
today. I think that would greatly illuminate this conversation 
about the contemporary program rather than our perceptions of 
what the program was.
    Mr. Shays. In the end, wouldn't all of us agree that this, 
what is an operationally realistic, is a matter somewhat of a 
subjective judgment? Wouldn't that not be true? Not to discount 
any of the reservations. It is just to suggest that what is 
realistic to one may not be realistic to somebody else. And so 
it seems to me that we ultimately have to get the agents before 
us and have them defend what is realistic.
    And what I would be seeking to learn from the agency would 
be, well, are there like 10 steps of realistic? I mean, you 
dealt with the one kind of case. But if you make it tougher, 
stage two, stage three, and four; and at what stage are they at 
realistic? But, I mean, that is kind of where I am coming down.
    I mean, what I am finding helpful is that this is no longer 
in my mind whether we can hit a bullet on a bullet, but whether 
with decoys we can achieve what we need. And I can understand 
that the more decoys you have, the more sophisticated you have 
to make that weapon, that warhead and that missile. And then 
how realistic is that? So those are the kind of questions that 
I would be going to.
    In the end, we may say it wasn't worth $200 billion or 
whatever. But then I look at it from the standpoint, if we have 
already spent $150 billion, is it realistic to continue based 
on the, what I call, the marginal cost, the cost from this 
point on? Or should we just cut our losses and stop?
    And then what I try to remember is that when we fought the 
first war in the Gulf, I was reminded--I was a new Member--that 
all of the systems that worked well for our troops, the ways 
that we were able to see them before they could see us and hit 
them before they hit us, those decisions were made by a 
Congress 10 years before I ever became a Member of Congress. 
But my constituents said, what a great job. We won the war in 
Kuwait, our troops did a great job. And they slapped me on the 
back. And I knew that really I had nothing to do with that. 
Those decisions were made by someone 10 years earlier.
    So my concern is always the reservation that I say no to 
something that ultimately may stop a missile. And if it stops 
one or two missiles, then I am going to ask myself, was that 
worth $200 billion?
    So what would be wrong is if people then have a false sense 
of security because of a missile system which could be--and 
then you do certain things that encourage someone to use a 
missile and then the system doesn't work.
    So it works both ways, and I understand that. But I thank 
all the witnesses. I am very sorry I wasn't here earlier. I 
have not literally unpacked my two attache cases that I brought 
in when I came in this week. They are still sitting on my chair 
unpacked. So--anyway. Thank you.
    Mr. Tierney. Thank you, Mr. Shays. Just on that point of 
what is operationally realistic, doesn't our intelligence 
community help define that? And we have a 1999 NIE that 
basically says that Iran could put whatever decoys were 
technologically capable at that time by whether it is Russia or 
China? So that defines for us what a realistic set would be. Am 
I off the base on that? Did I hear it correctly?
    Ms. Gronlund. I think that is right. I think there would 
also be value, as I suggested, in having a countermeasure Red 
Team, which there was for a while, and I don't know if it is 
still there.
    Mr. Tierney. Dr. Coyle.
    Mr. Coyle. Yes, Mr. Chairman. I don't think that the 
difference between an operationally realistic test and an early 
developmental test is something that is vague at all. I don't 
recall quite how Mr. Shays worded it, but I don't think that 
this is a subtle thing at all, the difference between early 
developmental tests and realistic operational tests.
    Forget about decoys. Pretend there are never going to be 
any decoys, never going to be any countermeasures. You want the 
system to work at night. They have never shown that it can work 
at night. You want the system to work when the sun is shining 
in the eyes of the interceptor so that it makes it harder to 
see. It uses infrared sensors that are sensitive to that. You 
want it to work when there is more than one missile. Is Iran or 
North Korea going to fire just one missile and wait to see what 
happens?
    I don't think those are subtle things at all, and they have 
yet to show those things in the testing programs.
    Mr. Shays. What would be helpful to the committee I think 
would be for you and others to write a list of all the things 
that you think would be realistic. In other words, before you 
deploy, let's do the one in the sun, let's do the multi. 
Whatever. And then I would like to submit that as a request 
maybe from both of us, and then we then ask them: How many of 
these have you in fact done? But that would be helpful. If you 
could submit that for the record, all the ways that they could 
make the tests more realistic.
    Mr. Tierney. You weren't here earlier, but more to point 
with this thing would be to ask the MDA to give us a list of 
standards of what it is they are supposed to be trying to 
build. We don't even know what it is they are going to hit the 
point that they think they are there. We don't know what it is 
they are building, what they define as success, anything of 
that basis.
    Mr. Coyle. And I did include in my full statement such a 
list.
    Mr. Shays. Thank you.
    Mr. Tierney. Now, I am going to try to go through this as 
quickly as I can. The Government Accountability Office is 
describing an EKV anomaly that has persisted in the GMD flight 
intercept test for 7 years, since 2001. If not corrected, this 
anomaly could cause the EKV to temporarily lock into the wrong 
target and miss the real target.
    Can somebody explain that anomaly and the situation for us?
    Mr. Garwin. I don't know about it.
    Mr. Tierney. Dr. Coyle, do you know about it?
    Mr. Coyle. Yes, I do.
    Mr. Tierney. Would you share that with us?
    Mr. Coyle. Yes. There has been a problem with the EKV in 
tests ever since 2001, as the GAO reports. It is called an 
anomaly, which means that the EKV starts looking at the wrong 
thing and stays looking at the wrong thing. And if it keeps 
doing that too long, it is going to miss the target. And, 
fortunately, while they have had some tests that failed, none 
of them have failed for that particular reason, that the 
anomaly has only persisted for a short while and not long 
enough that was the reason that they missed when they missed.
    But, obviously, this is something that has to be fixed, and 
the Missile Defense Agency has been trying to fix it. But 
through one problem or another, as I explained in my full 
statement, to this day they still haven't been able to get to 
what the root cause of this problem is. They know that it keeps 
happening. They have taken steps such as improved electrical 
shielding to make it go away. They believe they have minimized 
the problem, but they also see even in the most two recent 
tests that have taken place that this problem is still there.
    I am not trying to make a big deal out of it. It is just 
one of many little things that have to be chased down. But I 
think it is an interesting example, that even solving one 
little problem like this one anomaly has taken 7, 8 years, and 
it is still isn't solved.
    Mr. Tierney. The SBIRS High, and the Space Tracking and 
Surveillance System [STSS], are they components necessary for 
the Ground-based Midcourse System we are talking about?
    Mr. Coyle. Yes, sir.
    Mr. Tierney. Do they exist?
    Mr. Coyle. No. They are being developed, but they don't 
exist. They are not on orbit in that sense.
    Mr. Tierney. If they are necessary for the system and they 
don't exist, then we certainly couldn't have had any 
realistically operational tests, because they are even not 
here. Right?
    Mr. Coyle. Exactly. And I have been surprised at some of 
the claims that have been made about the capabilities of the 
system, considering that those satellite systems are not even 
in there, not on orbit yet, and many years before they will be.
    Mr. Tierney. How many years, do you think?
    Mr. Coyle. Well, it is hard to say. They are years behind 
schedule and literally tens of billions of dollars over budget. 
But if, as the Missile Defense Agency sometimes claims, we have 
operational capability without them. Why do we need them? And 
if we need them, how can we--you know.
    Mr. Tierney. Mr. Kueter, do you want to answer that? If we 
have operational capability without them, why do we need them?
    Mr. Kueter. Well, you need the STSS system to help you deal 
with your complex countermeasures problem, which is why they 
are developing it, why they need to deploy it: For the purpose 
of dealing with the rudimentary threat that they believe they 
face from North Korea and Iran. They don't see necessarily a 
need for it right now to solve the mission of the initial 
defense that they were given by the Congress and the President.
    Mr. Tierney. If our intelligence agencies think that Iran 
would have whatever decoy capability China or Russia might 
have, why does it make sense for our MDA people to be telling 
us they just think some rudimentary system would be there? They 
want to give them all of the credit of being able to send a 
missile at us, but none of the credit of being able to do even 
the most basic and fundamental decoys.
    Mr. Kueter. As I think I mentioned, the NIE certainly 
indicates that they would have access to that technology, not 
that they have necessarily mastered it or are able to deploy it 
effectively on their own.
    Mr. Tierney. But the general consensus seems to be that a 
country that can build a missile could certainly build decoys.
    Mr. Kueter. That they could build them, not that they have 
mastered their use or that they would be able to work 
effectively in an offensive environment.
    Mr. Tierney. So we are again assuming that they are 
certainly the masters of building a missile but not the masters 
of building a decoy. We seem to make assumptions that go every 
which way, but always in a way that----
    Mr. Kueter. No. No, sir. And I don't believe that the 
Agency would agree with that, either. That is why they are 
planning tests against countermeasures and the four or five 
tests that are planned over the next 2 years. They understand 
the need to test against countermeasures for all the reasons 
that have been discussed here today.
    The question is, particularly as it pertains to STSS, is 
whether you need it uniquely to do the discrimination job, or 
whether the X-band radars and the other sensors already 
available to us can help do that job as it stands. They appear 
to be confident that the seeker on the kill-vehicle in 
combination with those radars can do the discrimination job. We 
will learn that over the course of the next 2 years as these 
flight tests take place.
    Mr. Tierney. Are you telling me the SBIR High system will 
be done in the next couple of years?
    Mr. Kueter. No, sir. It certainly will not.
    Mr. Tierney. Are you telling me that Space Tracking and 
Surveillance System will be done in the next couple of years?
    Mr. Kueter. No, sir. You need that to handle a complex 
countermeasures environment, one where you have very 
sophisticated countermeasures deployed. I don't even think the 
NIE would confirm that North Korea or Iran have access to that 
kind of capability, at least not at this time period. You have 
to project out when you think the STSS will be put on orbit. 
That might coincide with their acquisition of that capability, 
in which case we would have a very happy outcome.
    Mr. Tierney. Our intelligence won't confirm that they have 
a missile either. But the presumption here is that when they 
get ready to have a missile, that they will no doubt be ready 
to arm it with sufficiently sophisticated decoys.
    Mr. Kueter. We know they have a missile.
    Mr. Tierney. Am I off base?
    Ms. Gronlund. I mean, the point of our study was to look at 
things that were far, far simpler than building a missile and a 
nuclear warhead. I think some people could do it in their 
garage. I mean, Mylar balloons are not that hard to do. So I 
don't actually even know what is meant by a sophisticated 
countermeasure. The things that are described in the NIE, the 
things that we looked at are not sophisticated.
    Mr. Tierney. Would we need a SBIRS High or a Space Tracking 
Surveillance System to do the Mylar balloons?
    Ms. Gronlund. Well, it wouldn't help you. Again, we assumed 
we had that system when we did that analysis. You can make 
these balloons have a variety of temperatures by coating them 
with different colors of paint, take your pick, over a range of 
hundreds of degrees Fahrenheit or centigrade for that matter.
    Mr. Tierney. Would radar help you discriminate between 
those?
    Ms. Gronlund. No.
    Mr. Garwin. I think Mr. Kueter misspoke. He said we know 
they have the missile. The North Koreans certainly don't have a 
missile even if they were successful with their TB-2 that could 
carry a nuclear warhead to the United States. And Iran is far 
from having such a missile.
    Speaking of realism, I asked in my testimony on page 11 a 
question for the Missile Defense Agency. And it is: Does MDA 
believe that threat is not realistic? That is, the threat of 
ICBMs equipped with scores of bomblet RVs, reentry vehicles, 
that separate just after boost phase.
    So can they defend against that? If they can't defend 
against that, is it because they think that threat is not 
realistic? Because the intelligence community does believe it 
is realistic, we deployed and others deployed ballistic 
missiles equipped with bomblet warheads for dispensing chemical 
and biological munitions in the days in which we had such 
capabilities.
    Mr. Tierney. Back in 2003, in March, Pete Aldridge, who was 
then the U.S. Under Secretary of Defense for Acquisition, 
Technology, and Logistics, told Senator Bayh out of Indiana, 
that as of that date, March 18, 2003, the projected 
effectiveness of the system would be in the 90 percent range. 
That was with respect to deployment against a North Korean 
missile launched at the United States.
    Is there any prospect that was true, that statement? Mr. 
Kueter.
    Mr. Kueter. In 2003?
    Mr. Tierney. March 18, 2003, that there was--as of today, 
the projected effectiveness would be in the 90 percent range.
    Mr. Kueter. I have no way of knowing what kind of data he 
had available to him at that time.
    Mr. Tierney. Based on the data that you knew about at that 
point in time, would that have been an accurate statement?
    Mr. Kueter. That is probably an overstatement.
    Mr. Tierney. Probably. Dr. Gronlund.
    Ms. Gronlund. He didn't have any data because there was no 
data.
    Mr. Tierney. Dr. Garwin.
    Mr. Garwin. I don't know what he had in mind. And when he 
said would be 90 percent, I don't know whether he meant a 
launch in 2003 could be countered with 90 percent 
effectiveness----
    Mr. Tierney. He said, as of today. That would be March 18, 
2003. As of March 18, 2003, the projected effectiveness of the 
system to be deployed in 2004 would be against a North Korean 
missile launched at the United States would be in the range of 
90 percent.
    Mr. Garwin. So, in 2004, when it was deployed. No, I think 
that is considerable overstatement.
    Mr. Tierney. I think we have probably tortured you all 
sufficiently for the day. There are probably more questions 
that we may have to followup, if that is all right with you 
folks. I think we have covered a lot of ground here today and 
really extended your day far beyond what would have been 
realistic for you to take in such good humor.
    I want to thank you. I think you have helped us create a 
record and helped us at least educate ourselves for further 
hearings as we try to explore this issue. I thank you sincerely 
for coming in, and I look forward to your further advice and 
counsel as we move forward on this, and invite you to work with 
our staff if they could be helpful in lightening the load of 
anything that was requested of you from Mr. Shays or from me as 
that move forwards, and thank you very, very much.
    The meeting is adjourned.
    [Whereupon, at 6:50 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
